<html>
<title> - NOMINATION OF JOHN F. KELLY</title>
<body><pre>[Senate Hearing 115-141]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-141

                      NOMINATION OF JOHN F. KELLY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

   NOMINATION OF JOHN F. KELLY, TO BE SECRETARY, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                               __________

                            JANUARY 10, 2017

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
	

        
        
        
        
        
        
                                       ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-766 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
     
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
                    Daniel P. Lips, Policy Director
         Brooke N. Ericson, Chief Counsel for Homeland Security
               Margaret E. Daum, Minority Staff Director
                Anna E. Laitin, Minority Senior Advisor
                Sarah R. Garcia, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

























                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     3
    Senator Enzi.................................................    17
    Senator Tester...............................................    23
    Senator Daines...............................................    26
    Senator Peters...............................................    28
    Senator Harris...............................................    30
    Senator Paul.................................................    33
    Senator Hassan...............................................    35
    Senator Lankford.............................................    37
    Senator Heitkamp.............................................    39
    Senator Hoeven...............................................    42
Prepared statements:
    Senator Johnson..............................................    47
    Senator McCaskill............................................    49

                               WITNESSES
                       Tuesday, January 10, 2017

Hon. John McCain, a U.S. Senator from the State of Arizona            5
    Prepared statement...........................................    53
Hon. Robert M. Gates, Former Secretary at the U.S. Department of 
  Defense........................................................     8
    Prepared statement...........................................    58
Hon. Thomas R. Carper, a U.S. Senator from the State of Delaware      9
    Prepared statement...........................................    56
General John F. Kelly, USMC (Ret.), to be Secretary, U.S. 
  Department of Homeland Security
    Testimony....................................................    11
    Prepared statement...........................................    64
    Biographical and financial information.......................    66
    Letter from the Office of Government Ethics..................    84
    Responses to pre-hearing questions...........................    87
    Responses to post-hearing questions..........................   157
    Letters of Support/Opposition................................   186

                                APPENDIX

Charts submitted by Senator Johnson..............................   205

 
                      NOMINATION OF JOHN F. KELLY

                              ----------                              


                       TUESDAY, JANUARY 10, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:32 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, McCain, Portman, Paul, Lankford, 
Enzi, Hoeven, Daines, McCaskill, Carper, Tester, Heitkamp, 
Peters, Hassan, and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing of the Senate Committee on 
Homeland Security and Governmental Affairs is called to order.
    I want to welcome General Kelly. His family, his wife, 
daughter, and son-in-law are here, and I will not steal your 
thunder. I will let you introduce them in your opening remarks.
    I would certainly like to welcome Secretary Gates, it is a 
real honor and privilege to have met you and to have you 
introducing General Kelly.
    I do want to welcome our new Members. They are not all 
here, but we do have Senator Hassan from New Hampshire, Senator 
Harris from California, Senator Hoeven from North Dakota, and 
Senator Daines from Montana have joined our Committee. I really 
want to welcome all of you.
    I want to welcome the members of the audience, which is a 
good time to issue a warning. I know in our first confirmation 
hearing earlier this morning there were disruptions. Those will 
not be tolerated. I want to remind the audience members that 
disruption of congressional business is not just unfair to 
those who wish to watch this hearing, it is a violation of law 
and a criminal offense. The Capitol Police are authorized to 
immediately remove any individual who disrupts these 
proceedings, and we will restore order. So, again, that is the 
fair warning. I want the audience members and I want everybody 
here in America to witness these confirmation hearings and 
certainly the display of a fine American.
    We have Senator Harris from California. Welcome.
    Senator Harris. Thank you.
    Chairman Johnson. It is an honor for me to preside as 
Chairman of this Committee for my second Congress, and 
certainly this is the first hearing of the full Committee of 
the 115th Congress. This Committee has a history of 
bipartisanship. When I joined the Senate 6 years ago, Senators 
Lieberman and Collins provided that leadership. Then it was 
Senator Carper as Chairman and Senator Coburn. Last Congress, 
it was myself and Senator Carper. And now I am happy to welcome 
my new Ranking Member, Senator McCaskill from Missouri.
    Just as an example of our bipartisan cooperation, in the 
last Congress this Committee passed 83 pieces of legislation 
out of the Committee; 56 of those pieces of legislation were 
passed out of the Senate, and 49 were signed into law--and some 
relatively significant pieces of legislation. The way we have 
done that is by concentrating on areas of agreement. And what 
we first and foremost agree on as Members of this Committee, I 
think members of the audience as Americans, we all share the 
same goal. We all want a safe, a prosperous, and secure 
America. And in this Committee, we established a mission 
statement. It is pretty simple: To enhance the economic and 
national security of America.
    We established four goals for the homeland security side:
    Border security. We held 19 hearings.
    Trips. One down to Central America where General Kelly 
escorted us in Guatemala.
    Cybersecurity. Protect our critical infrastructure.
    Combating Islamic terror.
    And the fifth goal really was working with Secretary Jeh 
Johnson to make sure that he could fulfill his mission of 
keeping this Nation safe. And, of course, the Quadrennial 
Review completed in 2014 for the Department of Homeland 
Security (DHS) mirrors those goals and those priorities, those 
missions.
    So that is why we have been able to cooperate and achieve 
those kind of bipartisan results, and that is certainly what we 
are looking forward to.
    General Kelly, I know you have some extraordinary people 
here that are going to be introducing you, so I will not steal 
their thunder, but just to say that I think, you are just an 
extraordinary individual, a great American who has served 
faithfully and sacrificed mightily for this Nation, you and 
your family. It is a family affair, and we recognize that, four 
star general, a Gold Star parent. Your experience as head of 
U.S. Southern Command (SOUTHCOM) with the threats this Nation 
faces, our unsecured border, you fully understand what the 
causation of that is, what the root causes are.
    As head of Southern Command, in many respects you served as 
America's chief diplomat to the region, and you did a splendid 
job. And so I cannot think of a more qualified individual at 
this point in time to serve as the fifth Secretary of Homeland 
Security. So I just want to personally thank you for your past 
service, your past sacrifice, and your willingness to answer 
the call one more time for America.
    So, again, thank you. I think it is incumbent on this 
Committee and I think it is incumbent on the U.S. Senate to 
recognize how important it is for any President to be able to 
set up and establish their national security team from day one. 
It is certainly what happened in 2009 with Secretary Janet 
Napolitano. I think that is exactly what should happen with 
General Kelly, the Senate hopefully will confirm General Kelly 
on the first day of the Administration.
    There are a number of written statements provided to this 
Committee which I would ask to be entered in the record 
together with my written opening statement,\1\ without 
objection.\2\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 47.
    \2\ The additional statements referenced by Senator Johnson appear 
in the Appendix on page 186.
---------------------------------------------------------------------------
    I will also say, because I am sure we will have great 
attendance--we have Senator Hassan here, I appreciate you 
certainly joining this Committee--I could either go 5-minute 
rounds to quicken it, or we can go a full 7--I think I will go 
a full 7, but we want to really discipline that. So watch the 
time, be asking questions not beyond that. And General Kelly 
has also agreed to look at the clock, so every Senator can have 
a chance at asking questions.
    With that, I am happy to turn it over to and welcome my new 
Ranking Member, Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\3\

    Senator McCaskill. Thank you, Chairman Johnson.
---------------------------------------------------------------------------
    \3\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    Today's hearing is the first full Committee hearing of the 
new Congress and the Committee's first hearing on one of 
President-elect Trump's nominees. I welcome a working 
relationship with you. We have worked together before on a 
Subcommittee, and I know we have many areas of agreement and 
just a few of disagreement. But I am confident we can work past 
those and do some good work on behalf of the American people, 
and especially in the area of aggressive oversight of our 
government.
    As Members of this Committee and the Senate, we have a 
constitutional obligation to review the nominations made by the 
President and consent to their appointment. We are not here to 
participate in a partisan or a political exercise; we are here 
to fulfill the Senate's constitutional obligation as part of 
the orderly transfer of power to a new Administration.
    General Kelly has answered all of the Committee's advance 
questions and has provided all the information required for us 
to hold this hearing. I cannot say how grateful I am that that 
occurred. It was going to be an awkward moment when I was going 
to have to object to this hearing because the Office of 
Government Ethics or the Federal Bureau of Investigation (FBI) 
check had not been completed. But I am pleased to report that 
all was completed, and I have had a chance to review all of 
that information, and I am very appreciative of that, Mr. 
Chairman.
    Welcome, General Kelly. Thank you for your service to this 
country and, most importantly, thank you for being willing to 
serve again. It is very important that people stand up when 
their country calls, and I appreciate your willingness to do 
that.
    You have been asked to serve as the fifth Secretary of 
Homeland Security. The Department of Homeland Security has the 
tremendous responsibility to protect our homeland, its people, 
and its infrastructure.
    At this moment in our history, I cannot emphasize enough 
the need to protect our critical infrastructure--whether that 
is electric grids, public transportation, or power plants. We 
need to understand what steps you will take to defend that 
infrastructure against intrusion and harm.
    Our intelligence community (IC), of which DHS is a vital 
part, is among the finest in the world. I would argue it is the 
finest in the world. It is made up of dedicated public 
servants, including members of our military. In order for these 
people to do their job of protecting Americans in an 
increasingly challenging environment, they need the support of 
our government, all the way to the top. I want to understand 
whether you will take intelligence seriously and engage with 
the people whose job it is to give us good information so that 
we can make better decisions and so that the President-elect 
can make better decisions.
    In your answers to the Committee's questions before this 
hearing, you said that drug demand in the United States is 
causing much of the violence in Central and South America, and 
that this violence is the major reason for the large number of 
people moving illegally from that area into the United States. 
The issues underlying border security are complex, but one 
thing is clear: Many of the people coming across the border are 
not trying to sneak in under the fence or evade the Border 
Patrol; they are seeking refuge from the incredible violence in 
their home countries. I know that your experience at SOUTHCOM 
will help you in developing a comprehensive, inclusive approach 
to addressing immigration and border issues.
    I was also encouraged to see you discuss the necessity of 
engaging law enforcement, medical treatment and rehabilitation, 
and local communities in a comprehensive drug demand reduction 
campaign that includes the opioid epidemic as a big driver of 
heroin use. If you are confirmed, I hope that this will remain 
at the top of your priority list.
    Another major component of protecting the homeland is the 
Department's counterterrorism efforts that you are very 
familiar with, with your experience as an important leader in 
our military. In today's environment, effective 
counterterrorism efforts require using existing and new 
technology, as well as other tools, to counter evolving 
adversaries across shifting geographic borders. I plan to ask 
how you will address this challenge in new and innovative ways. 
I also hope that you will employ the same thoughtful and 
multifaceted approach to counterterrorism as in your proposal 
to address the challenges at our border.
    Recent events have shown us that terrorism has many faces. 
We have to get at root causes of extremism and also must ensure 
that people in our communities feel empowered to report 
concerns. I hope to hear from you today that you understand 
that our fight against violent extremism is not singular in its 
focus, and that you will fight against any narrative that 
encourages committing crimes against any Americans based on 
hate or country of origin.
    As Members of this Committee, we also have a Constitutional 
responsibility to conduct oversight of taxpayer dollars. This 
is one of my favorite areas. I can tell you right now that if 
you are confirmed, when you come before Congress to seek funds, 
you have to be prepared to answer some tough questions. I 
particularly am going to continue to be interested in 
contracting and cost-benefit analyses. I am going to want to 
see Independent Government Cost Estimates, performance plans, 
and real metrics. Decisions must be made on facts and data.
    I expect someone with your experience to be a strong 
leader. But even the best-managed Federal agency has waste, 
fraud, and abuse. I believe that whistleblowers are essential 
to good government, and I have made it one of my missions to 
expand and enhance protections for them. I want to make sure 
that you understand that open lines of communication, 
responsiveness to employee concerns, and a swift response to 
retaliation are things I expect from agency leadership. I also 
encourage any whistleblowers to contact my office if they have 
information to report.
    I believe you will also take seriously the role of 
congressional oversight in your new role. I am glad that you 
have already agreed to work with me as Ranking Member of this 
Committee because we have a lot of work to do. If you are 
confirmed, I will look forward to building a strong working 
relationship with you.
    Our country is facing a difficult time, and we have 
difficult problems to solve. The Department of Homeland 
Security needs good management and strong leadership. In your 
responses to the questionnaire and in our meeting before this 
hearing, you said that one of your greatest strengths as a 
leader is ``speaking truth to power.'' General Kelly, I cannot 
tell you how that was music to my ears. I believe very much in 
that principle, and I think that we all anticipate that you 
will need it in your next job, where you will have the 
responsibility and the obligation to speak truth to the 
Commander-in-Chief, who has used some of his most extreme and 
divisive rhetoric about issues under the Department of Homeland 
Security's jurisdiction. Given your experience, I expect you to 
be up to that challenge. And if I think you are backing down, 
you will probably hear from me.
    I thank you for being here today, and I look forward to 
your testimony.
    Chairman Johnson. Thank you, Senator McCaskill.
    We have three distinguished individuals making 
introductions of General Kelly. We will start with Senator 
McCain, who needs no introduction. Senator McCain.
    Senator McCain. But he enjoys it. [Laughter.]
    Chairman Johnson. I did not have anything written up.

TESTIMONY OF THE HONORABLE JOHN MCCAIN,\1\ A U.S. SENATOR FROM 
                      THE STATE OF ARIZONA

    Senator McCain. Thank you, Mr. Chairman, Ranking Member 
McCaskill, and Members of the Committee. It is an honor to say 
a few words in support of General John Kelly's nomination to be 
the next Secretary of Homeland Security. He is an excellent 
choice, superbly well-qualified for the position, and a person 
of the highest integrity. The American people are fortunate 
that a man of his caliber is again willing to serve them in an 
important office after having already devoted many decades of 
his life to the distinguished service of our country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCain appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    When he retired from his last command, Commander of the 
U.S. Southern Command, General Kelly was the longest serving 
Marine Corps general still on active duty, having worn the 
uniform for almost half a century. He was the longest serving 
active duty general in Marine Corps history, I believe. In 
fact, I think he was the second longest serving general officer 
in the entire Armed Forces. Only the late General John Vessey, 
also an officer of the highest integrity and selfless devotion 
to duty, served longer, 46 years to General Kelly's 45.
    When he was nearing the end of his tour as SOUTHCOM 
commander and approaching retirement, he said in an interview 
that his ``greatest fear was that I would be offered another 
job.''
    Mr. Chairman, I have no doubt whatsoever that General 
Kelly's statement was entirely sincere. Those of us who have 
had the privilege of knowing General Kelly for a while, who 
have heard him testify before our committees, and paid 
attention to his answers to our questions know that John Kelly 
says what he believes to be the truth, always, no matter the 
inconvenience it might cause him. Speaking truth to power is 
something he is renowned for, and no less so for his respect 
for the chain of command.
    Secretary Gates, who is here, one of our great leaders, 
will mention his relationship with him when they served 
together.
    If anyone has earned a peaceful retirement from public 
duty, it is General Kelly. But he is a patriot always. And like 
Jack Vessey, his peer in length of active duty service, he does 
not refuse his country's call. President Reagan called General 
Vessey out of retirement to serve as his special emissary to 
Vietnam to get an accounting for America's missing from the 
war. President-elect Trump has asked General Kelly to lead the 
Department of Homeland Security and help keep the American 
people safe from those who wish us harm. It is work he is 
obviously well qualified for.
    He served three tours of duty in Iraq and was a key figure 
in helping sustain the Anbar Awakening that, with the surge, 
turned around a war that we were near to losing. In that role, 
he learned the value of developing local relationships based on 
mutual respect--a lesson that served him well in future 
commands.
    As SOUTHCOM commander, General Kelly was highly regarded 
for the skill and success he had developing close working 
relationships with the civilian and military leaders of Latin 
America and the Caribbean. Many of those leaders consider him a 
friend. They all respect him.
    Even more important for his pending assignment, General 
Kelly has extensive experience with many of the challenges that 
await him as Homeland Security Secretary: the threats to our 
security posed by drugs and violence that make their way into 
our country across our Southern Border, and the potential for 
developing strains of Islamic extremism in the hemisphere to 
foment terrorist attacks here. He is the right man to meet 
these and the many other challenges awaiting him.
    General Kelly is not, I am sorry to say, a graduate of the 
United States Naval Academy. It might surprise the Committee 
that I do not find that lack of credential disqualifying. I 
barely graduated from the place myself. But he has more 
impressive credentials. He enlisted in the United States Marine 
Corps (USMC).
    General Kelly came from modest beginnings, as do most 
enlisted men and women in all our armed services. He is the 
proud son of his working-class family and the great city of 
Boston. In conversations with me, he has recalled the childhood 
friends he has lost to the scourge of drug abuse.
    Before he went to college, he volunteered to risk his life 
and limb in an infantry company in the 2nd Marine Division. He 
was a sergeant when he left the Corps and a second lieutenant 
when he returned to it 4 years later. What followed was an 
exemplary career, with many challenging assignments, and quite 
a few very dangerous ones, to which he gave every measure of 
his talent, discipline, courage and love of country.
    General Kelly has sacrificed a great deal for his country. 
More than most. And in every day of his service, he knew and 
respected and remains in awe of the courage and dedication of 
the men and women, enlisted and officers, who stand in harm's 
way so that the rest of us can pursue our aspirations and live 
our peaceful lives without fear of the terrors they face for 
our sake.
    Should he be confirmed, as he deserves to be and I am 
confident he will be, he will be entitled to the appellation 
``The Honorable.'' Few cabinet secretaries will have deserved 
it more. I endorse his nomination wholeheartedly, with 
gratitude for his willingness to serve and for the honor of 
introducing him to you today.
    Thank you.
    Chairman Johnson. Thank you, Senator McCain.
    Our next distinguished guest offering an introduction will 
be Senator Carper, who also needs no introduction.
    Senator Carper. Mr. Chairman, I am happy to yield to 
Secretary Gates. In fact, I would like to do that, if you do 
not mind. Thank you for the courtesy.
    Chairman Johnson. OK. Our next guest then is Secretary 
Robert Gates. Secretary Gates is the former Secretary of 
Defense and former Director of Central Intelligence Agency 
(CIA). Secretary Gates led the Department of Defense (DOD) from 
2006 to 2011. Prior to this, Secretary Gates served as the 
president of Texas A&M University from 2002 to 2006. Secretary 
Gates began his career as an officer in the United States Air 
Force (USAF) and joined the Central Intelligence Agency in 
1966. He served 26 years at the CIA and is the only career CIA 
officer to rise from an entry-level employee to Director, the 
position he held from 1991 to 1993.
    Secretary Gates has earned numerous honors and distinctions 
during his career, including the National Security Medal, the 
Presidential Citizens Medal, the National Intelligence 
Distinguished Service Medal twice, and the Distinguished 
Intelligence Medal, which is the CIA's highest award, three 
times.
    Welcome, Secretary Gates. It is an honor to have you here 
today to introduce General Kelly. Secretary Gates.

TESTIMONY OF THE HONORABLE ROBERT M. GATES,\1\ FORMER SECRETARY 
               OF THE U.S. DEPARTMENT OF DEFENSE

    Mr. Gates. Thank you, Chairman Johnson, Ranking Member 
McCaskill, distinguished Members of the Committee on Homeland 
Security and Government Affairs. It gives me great pleasure to 
introduce my friend and former colleague, John F. Kelly, as the 
President's nominee to be the next Secretary of Homeland 
Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gates appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    In today's world, the Department of Homeland Security is 
much like a combat command, perhaps the most complex such 
command defending our Nation and our people. Among its diverse 
responsibilities are protecting us from terrorism, guarding our 
borders and coasts, deciding who gets into the country, 
protecting our transportation networks and infrastructure, 
defense against cyber attacks, and providing help when disaster 
strikes. I can think of no one more qualified, more familiar 
with these threats and challenges, or better prepared to lead 
our homeland defense than John Kelly.
    The Department of Homeland Security, as this Committee well 
knows, is a complicated mix of multiple agencies and 
organizations with different cultures and histories. Yet, as 
commander of Southern Command, General Kelly successfully 
managed relationships and partnerships with seven different 
Cabinet departments and in all more than 20 civilian 
organizations. Leading a combatant command these days requires 
managing multiple domestic and foreign relationships, and 
General Kelly did so with great skill and success. I am 
confident he would do so, as well, as Secretary of Homeland 
Security.
    In addition, as Senior Military Assistant to two 
Secretaries of Defense, John successfully helped lead the 
largest and most complex organization in the country. He was 
invaluable to me and to Leon Panetta in helping break down 
bureaucratic barriers to cooperation and in holding senior 
officials accountable for decisions and for performance. And 
the needs of the troops on the front lines were always foremost 
for him.
    Of special importance to this Committee, John Kelly was 
twice assigned as Marine Corps liaison to the Congress, the 
second time as the Commandant's Senior Legislative Assistant. 
As a result, he has a deep understanding of the legislative 
process, and especially of the need to be responsive to 
Congress and to have a relationship of openness and trust.
    In terms of skills and experience, General Kelly is, in my 
view, superbly qualified to serve as Secretary. But it is 
John's character and values that truly set him apart. To put it 
quite simply, he is one of the finest people I have ever known. 
I would trust him with my life, and, indeed, many others, 
mainly young Marines, literally have done so. And how often is 
it that a tough commander genuinely is beloved by his troops?
    Integrity in word and deed is the source of moral 
authority, and it is moral authority that moves people to 
follow a leader even at personal risk and sacrifice. John Kelly 
is a man of great moral authority. If he is confirmed, the 
professionals throughout the Department of Homeland Security 
will realize that their new Secretary cares about each and 
every one of them, and that he will do everything in his power 
to protect and support them and to get them what they need to 
do their jobs--protecting all of us.
    I commend the President-elect for nominating General Kelly 
for this position because, as I know firsthand, John is a 
straight-talking, candid, courageous leader who will say 
exactly what he thinks. His values are a reflection of 
America's best values, and he will not disappoint.
    Over a military career spanning more than 40 years, John 
Kelly and his family have sacrificed much serving our country, 
and yet here he is willing to serve again. It is with great 
pride that I introduce him to you today.
    Thank you.
    Chairman Johnson. Thank you, Secretary Gates. Senator 
Carper.

TESTIMONY OF THE HONORABLE THOMAS R. CARPER,\1\ A UNITED STATES 
               SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks. Thanks, Mr. Chairman, and 
congratulations to our new Ranking Member, Claire McCaskill. 
And to see all of my colleagues from this point of view, it is 
good to see you all up there.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 56.
---------------------------------------------------------------------------
    It is a privilege to join Senator McCain, with whom I 
served during the Vietnam War, and I would just say from my 
vantage point, John, you are a hero, and I am proud to have 
served with you and proud to know you today and to sit with you 
today.
    Secretary Gates, you are one of the finest Secretaries of 
Defense we have ever had, and I am honored to be with you today 
as well.
    We are introducing a man, as you know, who needs little 
introduction to this Committee, General John Francis Kelly, and 
welcoming him and his wife, Karen, and their daughter, 
Kathleen, and her husband, Jake, sitting behind us, to this 
confirmation hearing.
    Karen, I said to your husband yesterday, given all the 
years that he has served and you have allowed him to serve, for 
you no purgatory, straight to heaven. So thank you for 
continuing to share with us an extraordinary man.
    Created about a dozen or so years ago, the Department of 
Homeland Security's 240,000 employees get up every day. They go 
to work. They go to work to protect our homeland and all of us 
who are privileged to live here. Almost every month for the 
past 4 years, I have gone to the Senate floor, as some of my 
colleagues know, to talk about the remarkable work that they do 
for all of us. They respond to devastating hurricanes, saving 
lives, and helping people put their lives back together. They 
protect us from cyber attacks and help secure thousands of 
miles of our country's borders to the north and to the south, 
and or shorelines to the east and to the west.
    They expedite the movement of billions of dollars of 
commerce every day while intercepting drugs and disrupting 
human smuggling and trafficking rings. They keep us safe when 
we fly the sometimes not so friendly skies of this country and 
this world. They protect Presidents and Vice Presidents and 
their families as well as candidates for these offices and the 
leaders of scores of other nations who come here. They do all 
of this and a whole lot more, oftentimes without a word of 
thanks.
    General John Kelly is an exceptionally well qualified 
nominee to lead the Department of Homeland Security, as you 
have heard. If confirmed, he would succeed another exceptional 
leader--Secretary Jeh Johnson. Jeh, with the help of his 
leadership team, this Committee, and Congress, has begun, I 
think, a remarkable transformation of the Department that was 
badly needed and is much welcomed.
    I have found over my lifetime that the key to success of 
any organization, whether it is military, government, business, 
or whatever, the success of any organization I have ever been a 
part of or witnessed is almost always enlightened leadership. 
John Kelly is a leader. He is humble, not haughty. He has the 
heart of a servant. He understands that his job has been and 
will be to serve, not be served.
    He leads by example. With General Kelly, it is not, ``Do as 
I say, but do as I do.'' He has the courage to stay out of step 
when everyone else is marching to the wrong tune. He surrounds 
himself with the best people he can find, and when his team 
does well, he gives them the credit. And when the team falls 
short, he takes the blame. He does not believe in raising 
himself up by pushing other people down. He is a purveyor of 
hope and consistently appeals to people's better angels.
    Throughout John Kelly's 45 years of military service in the 
Marine Corps, he has sought to do what is right, not what is 
easy or expedient. He embraces the Golden Rule, treating other 
people the way he would want to be treated. He looks at 
adversity and sees opportunity. He believes that everything we 
do, we can do better. He is tenacious. There is no quit in this 
man. And when he knows he is right, he does not give up.
    When we met in my office yesterday, General Kelly spoke of 
the importance of addressing the root causes of some of the 
problems and challenges that we face as a Nation, not just the 
symptoms of those problems. As an example, he cited the 
transformation of Colombia from an almost failed nation 20 
years ago to a far different one today and a valued ally and 
trading partner of ours.
    He also spoke of our addiction to drugs and how that is the 
root cause of much of the violence and lawlessness in countries 
like Honduras, Guatemala, and El Salvador. And while he spoke 
thoughtfully and creatively of ways to better secure our 
Southern Border with Mexico--for example, he understands that 
those steps need to be coupled with others embodied in the 
Alliance for Prosperity adopted by Honduras, Guatemala, and El 
Salvador, supported by the United States, much as we have 
supported Plan Colombia for two decades.
    And, finally, General Kelly understands the importance of 
working cooperatively with the Congress, and Secretary Gates 
has given us a couple of explanations of why that might be, the 
case with two of your tours here on Capitol Hill. But I think 
you understand the importance of working especially with this 
Committee.
    And General Kelly may not always tell us what we want to 
hear in this room, or outside of it, but he will always tell us 
what we need to hear. And when it is needed, he will remind the 
people he leads at the Department of Homeland Security to, 
``Just use some common sense,'' the way my dad used to remind 
my sister and me when we were young.
    In short, he will provide the leadership that will enable 
the Department of Homeland Security to continue the 
transformation it has begun. In doing so, he will make us safer 
as a Nation, even as he makes us prouder as a country of the 
team that I hope he will be confirmed to lead.
    Thank you for your willingness to do this and to my 
colleagues for welcoming him and for giving me this opportunity 
to speak truth to power.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    General Kelly, it is the tradition of this Committee to 
swear in witnesses, so if you will please stand and raise your 
right hand. Do you swear that the testimony you will give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    General Kelly. I do.
    Chairman Johnson. Please be seated. General Kelly.

   TESTIMONY OF GENERAL JOHN F. KELLY, USMC (Ret.),\1\ TO BE 
        SECRETARY, U.S. DEPARTMENT OF HOMELAND SECURITY

    General Kelly. Mr. Chairman, Ranking Member McCaskill, and 
distinguished Senators of the Committee, please accept my 
thanks, my deep appreciation for considering my nomination to 
lead the men and women of the United States Department of 
Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kelly appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    Senator McCain, Senator Carper, and Secretary Gates, thank 
you for taking the time to be here on my behalf, and for your 
very kind words.
    My wife and family have already been introduced, but I will 
say it again. My wife, Karen, is with me here today. She is my 
hero. She has put up with more in our 40 years of marriage than 
you could ever imagine. And my daughter, Kathleen, is here as 
well and her recent husband, Lance Corporal, United States 
Marine Corps, Retired, Jake Fox, another American hero. I thank 
them for their service and for their sacrifice.
    Over the past 45 years, I have been privileged to serve my 
country as both an enlisted Marine and an officer. I have led 
platoons through divisions and corps, held senior command 
positions in Iraq, served as the Combatant Commander of the 
United States Southern Command, and as Secretary Gates 
mentioned, as the Senior Military Assistant to two of my 
heroes, Secretaries Gates and Panetta. I have worked across the 
interagency. I have worked with our allies, the private sector, 
and independent experts to identify innovative and 
comprehensive solutions to current and emerging threats.
    These assignments--while varied--shared the common 
characteristics of working within and leading large, complex, 
and very diverse multi-missioned organizations while under 
great pressure to produce results.
    I am humbled to once again be called to serve, this time 
with the wonderful men and women of the Department of Homeland 
Security. As a Nation, we are reminded almost daily that the 
threats to our homeland have not receded in any way. The 
challenges to our way of life have not diminished.
    As I solemnly swore before my God when I entered the Marine 
Corps, if confirmed, I will faithfully support and defend the 
Constitution of the United States against all enemies, foreign 
and domestic--every second of every day.
    I believe in America and the principles upon which our 
country and way of life are guaranteed. I believe in respect, 
tolerance, and diversity of opinion. I have a profound respect 
for the law and will always strive to uphold it. I have never 
had a problem speaking truth to power, and I firmly believe 
that those in power deserve full candor and my honest 
assessment and recommendations. I also value people that work 
for me speaking truth to power.
    I love my country, and I will do everything within my power 
to preserve our liberty, enforce our laws, and protect our 
citizens. I recognize the many challenges facing the 
Department, and should I be confirmed, I look forward to 
partnering with you to protect the homeland.
    Sir, I look forward to discussing the future of the 
Department and answering the Committee's questions. Thanks so 
very much.
    Chairman Johnson. Thank you, General Kelly.
    Again, I want to remind the Members I am going to limit 
questions to 7 minutes, and I am going to be very disciplined 
in maintaining the 7 minutes.
    There are questions that I will ask, and then I will 
reserve the rest of my time and defer to Senator McCain, who I 
know has limited time. But let me start with three questions.
    General Kelly, is there anything that you are aware of in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated?
    General Kelly. There is nothing, sir.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    General Kelly. There is nothing, Senator.
    Chairman Johnson. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    General Kelly. I do.
    Chairman Johnson. Thank you. Senator McCain.
    Senator McCain. General, as you know, we passed legislation 
on the defense bill prohibiting torture, including 
waterboarding. Do you intend to follow that law?
    General Kelly. Absolutely, Senator.
    Senator McCain. And what is your personal view of 
waterboarding and other forms of torture?
    General Kelly. Senator, I do not think we should ever come 
close to crossing a line that is beyond what we as Americans 
would expect to follow in terms of interrogation techniques.
    Senator McCain. Would that be basically the Geneva 
Conventions?
    General Kelly. Absolutely. Yes, sir.
    Senator McCain. Thank you. there is an epidemic in this 
country, and it is opioids, and it is manufactured in Mexico. 
And, regrettably, according to information that I have, a lot 
of it is coming across the Arizona-Mexico border into Phoenix, 
Arizona, and being distributed nationwide. And as you well 
know, we are experiencing a dramatic increase in deaths from 
overdose, and that is taking place amongst many older Americans 
that have turned from OxyContin and other substances. In fact, 
the former Governor of New Hampshire will testify here, I 
think, on the really severe aspects of this, what many have 
called an ``epidemic.'' I am very interested in your views and 
taking in the fundamental economics that if there is a demand, 
there is going to be a supply. But what is your view of that 
situation, General?
    General Kelly. Senator, I think I would start off by saying 
it is amazing to me, but I just found out very recently that an 
old friend--who is not so old, 62 years old--after a very 
successful life, just overdosed on heroin. And I think to your 
point, it is cheaper, more available in many ways than some of 
the opioids, since she could not apparently get a prescription 
for what she thought she needed.
    But the point is that most Americans do not realize it, but 
an awful lot--100 percent of the heroin that we consume in the 
United States is, in fact, produced in Mexico, and it is 
creeping down now into Central America. They have responded, 
the cartels, the networks have responded to the demand. So 
instead of Asia and South Asia, it now is all produced here in 
the Western Hemisphere. Poppies are grown in countries as far 
south now as Guatemala, a little bit in Colombia, although they 
are getting after it. But it is all produced here.
    An awful lot of the opioids, what looks like 
pharmaceuticals, are actually produced, again, in Mexico and 
then pirated up here through the border. And, of course, part 
of the problem, and this I think would be outside my particular 
area, if confirmed, but part of the problem is we are a very 
overly medicated society. Huge amounts of opioids are 
prescribed legally for things that in the past would probably 
not receive that level of medication.
    So the point is, a huge problem, getting worse, and the 
profits are just unbelievable to the cartels that control the 
whole marketing and transport.
    Senator McCain. There has been a great deal of conversation 
about building a wall, and it has been my experience that we 
need to have barriers. But building a wall is not the way to 
prevent the flow of drugs or people illegally across our 
border. I think it requires ranging from drones to towers to 
use of some of the technological advantages that we have.
    If you would, just very briefly tell us what you think is 
necessary to have a secure border.
    General Kelly. Yes, Senator. A physical barrier in and of 
itself, certainly as a military person that understands defense 
and defenses, a physical barrier in and of itself will not do 
the job. It has to be really a layered defense. If you were to 
build a wall from the Pacific to the Gulf of Mexico, you would 
still have to back that wall up with patrolling by human 
beings, by sensors, by observation devices. But as I have said 
to many of the Senators present, and I have said I think for 3 
years, really I believe the defense of the Southwest border 
really starts about 1,500 miles south, and that is, partnering 
with some great countries, as far south as Peru really, that 
are very cooperative with us in terms of getting after the drug 
production, transport, very good with us--to include Mexico. We 
could have better partnerships. I think we can work closer with 
them. We can give them more of what they need. We certainly 
share information with them now. We have legal attaches in many 
of our embassies, and they developed unbelievable amounts of--
--
    Senator McCain. I do not mean to interrupt----
    General Kelly. I am sorry.
    Senator McCain [continuing]. But is it not technology that 
would help us secure the border as much as anything else? And I 
am talking about surveillance; I am talking about capabilities 
to intercept, but not to just sit there--in other words, 
frankly, the kind of border security that we see in Israel.
    General Kelly. Technology would be a big part of it, yes, 
Senator.
    Senator McCain. And that technology would that be drones?
    General Kelly. Observation devices.
    Senator McCain. Towers?
    General Kelly. The aerostats, observation devices mounted 
in, certain terrain features, unmanned aerial vehicles (UAVs) 
for sure, sensors in places perhaps that the wall cannot be 
built or will not be built anytime soon in terms of the 
immensity of that project, but yes, sir.
    Senator McCain. Finally, the morale of our Border Patrol is 
not real good, and I think you know from your leadership 
experiences that if the morale of your force is not good, then 
it is hard to get the mission accomplished. And I know you are 
aware of that, and I hope you will spend some time with these 
really outstanding men and women who are doing arduous work, 
sometimes under very difficult conditions. It gets very hot on 
the Sonora-Arizona border, as you know. So there are morale 
problems there. A lot of it has to do with they think they are 
not given the capabilities to do their job as they think they 
can do it most efficiently. And I know you will be focusing a 
lot of attention on that.
    General Kelly. I will, Senator.
    Chairman Johnson. Senator McCaskill.
    Senator McCaskill. General Kelly, on Friday, the Office of 
the Director of National Intelligence (ODNI) released a 
declassified report on the assessment of Russian activities and 
intentions in our recent election. I am going to quote from the 
report for the record:
    ``Russian efforts to influence the 2016 U.S. Presidential 
election represent the most recent expression of Moscow's 
longstanding desire to undermine the U.S.-led liberal 
democratic order. But these activities demonstrate a 
significant escalation in directness, level of activity, and 
scope of effort compared to previous operations.
    ``We assess Russian President Vladimir Putin ordered an 
influence campaign in 2016 aimed at the U.S. Presidential 
election. Russia's goals were to undermine public faith in the 
U.S. democratic process, denigrate Secretary Clinton, and harm 
her electability and potential presidency. We further assess 
Putin and the Russian Government developed a clear preference 
for President-elect Trump. We have high confidence in these 
judgments.''
    General Kelly, do you accept the conclusions of the 
Intelligence Community regarding Russian interference in our 
election?
    General Kelly. With high confidence.
    Senator McCaskill. On border security, I think that Senator 
McCain covered a lot of this. I want to point out that the 
budget we now have annually on border security equals the 
combined budgets of FBI, the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives (ATF), the Drug Enforcement Agency 
(DEA), Secret Service, U.S. Marshals, plus the entire New York 
Police Department budget. That is $19 billion in fiscal year 
(FY) 2016. And in fiscal year 2016, we had 331,000 people 
apprehended at the border. Almost 50 percent of those turned 
themselves in. In other words, all the border security agents 
in the world, all the fences in the world would not have made 
any difference because they said, ``Hey, take us. We are here. 
We want asylum.''
    So I guess my question to you is: Do you have it on your 
agenda to examine the spending priorities of that $19 billion 
and look at the efficacy of every place we are spending that 
money? And, most importantly, how will you address the fact 
that almost half of the people coming to the border right now 
that we are apprehending are not trying to evade detection; 
they are just trying to find someplace safe?
    General Kelly. On the first question, Senator, anytime I 
have ever taken over a new organization, certainly I go top to 
bottom and look real hard at how we are doing business. 
Clearly, people that would have come before me, if I am 
confirmed, all did a great job, Secretary Jeh Johnson and 
others. But my typical approach is to do a top-to-bottom 
assessment, and I certainly will do that.
    On the asylum issue, I believe, I am confident that most of 
the people that are coming up here from certainly Central 
America are coming here for two reasons, or three probably:
    One, first it is very unsafe. They are some of the most 
dangerous countries on the planet, and that is unfortunate; not 
only because of that, but a lot of social issues or lack of 
economic development; and then, finally, they are very 
confident, if they pay the money and get on the network, they 
will get to the United States, and they will be--in their view 
at least, unlikely that they will be going back to Honduras, 
Guatemala, or other countries like that.
    Senator McCaskill. I will look forward to your assessment, 
and I know we talked in my office about the drug cartels and 
what big role they have in the people showing up seeking 
asylum, because most of the violence is attributable to that, 
as opposed to the Deferred Action for Childhood Arrials (DACA) 
or any other pronouncements or policies of the Obama 
Administration.
    The last thing I want to mention to you is the enhancements 
on the Electronic System for Travel Authorization (ESTA). I 
think people do not realize--I am aware of a situation recently 
where because of the electronic enhancements, we were able to 
stop someone from coming to America that was coming from a visa 
waiver country to South America and then was planning on coming 
to America and doing us harm, and we were able to stop that 
travel. In fact, since February 2016, 40,000 individuals have 
been denied visa-free travel due to the enhancements that have 
been put in place.
    Along with that is we have tried to do preclearance in 
various countries around the world so that we are checking 
people before they get on the plane with, maybe somebody would 
call it, ``extreme vetting.'' That is now going on across the 
globe.
    Have you had a chance to look at that? And do you believe 
that--I mean, because that is really the border that I am most 
worried about in terms of our safety. Are people traveling here 
from visa waiver countries with an eye toward doing our country 
harm and our ability to stop them?
    General Kelly. Senator, I think that the visa waiver 
countries clearly are countries that have at least law 
enforcement and information systems in place that we have 
confidence in. Nothing is perfect. Many other countries, as you 
know, do not have nearly that kind of system in place, and, 
consequently, we would not have the confidence there. But 
nothing is perfect. Many countries, again, a high degree of 
confidence that their citizens that come here will not cause 
problems. But, ever vigilant. And in those countries that do 
not have the systems in place, I think we somehow have to 
convince ourselves that everyone coming here, we have a 
reasonable expectation that they will not do us harm, whether 
it is crime or terrorism.
    Senator McCaskill. Some of the enhancements that have been 
put in place are: Are you a member of the Global Entry Program? 
Have you traveled to or been present in Iraq, Sudan, Iran, 
Sudan, Yemen, Somalia, or Libya on or after March 1, 2011? 
Other questions that are part of this.
    Do you believe it is important that we expand this program, 
the enhancements and the preclearance program?
    General Kelly. I think it is a good idea. I do not know 
exactly the details of it, but it would appear to me that it is 
a good idea. But, again, we have to have confidence in the 
information that we are getting onsite to prevent people that 
would come here to do us harm.
    Senator McCaskill. Great. Thank you, Mr. Chairman.
    Chairman Johnson. Senator McCaskill, I notice our next new 
member has shown up, so, Senator Hoeven, welcome to the 
Committee. We appreciate it.
    I gave up my questioning slot to Chairman McCain. I know 
Chairman Enzi also is managing some activity on the floor, so I 
will defer to Chairman Enzi. And then we will get back on 
schedule.

               OPENING STATEMENT OF SENATOR ENZI

    Senator Enzi. I thank the Chairman. I do need to go back to 
the floor, and I do appreciate the chance that I had to meet 
with General Kelly. In my early days here in the Senate, there 
was a change in the makeup of the majority, and we became the 
minority, and it created a little problem of a vacancy in the 
Foreign Relations Committee, and I happened to get that Foreign 
Relations Committee spot. And they had to redo all the 
committees, and there was one committee that apparently nobody 
wanted because I became the Ranking Member on it. Now, that was 
just shortly before 9/11. So right after that, I had a lot of 
people saying, ``So how did the new guy get the anti-terrorism 
committee?'' I was even on a United Nations (U.N.) committee 
that was supposed to find the bad guys, and I guess it was 
fortunate, or maybe unfortunate, that just about all of us were 
accountants. So what we did was follow the money, and we got 
130 countries involved in it. And several of them found the bad 
guys and prosecuted the bad guys, and in some cases executed 
the bad guys. And it was effective until they figured out what 
we were doing.
    You are going to have a huge role in the anti-terrorism 
area. I think we spend $46 billion on your budget, and we have 
to be sure we are finding the bad guys, and I would be 
interested in any approaches that you would be doing to 
effectively spend that money and develop policy that will help 
us.
    General Kelly. To the degree that I am familiar with what 
is going on already, I think anytime that we can work with 
partners overseas--and, again, we have representatives--``we'' 
meaning the United States law enforcement agency people, intel 
people, in most of the most important countries in this regard 
around the world in our embassies, and they have very good 
relationships, generally speaking, with the local law 
enforcement, local intel people.
    I think anything we can do to, get into that level of--I 
know in Southern Command, as an example, the most useful intel 
I got, I used, tended to come from not the CIA, but FBI and the 
DEA representatives in our embassies. But anything we can do to 
kind of enhance the information sharing within the law, of 
course, between other countries and ourselves, and certainly 
within our own interagency, we have gotten much better at it 
since 9/11 in terms of information sharing.
    One of the things I definitely will get into, if confirmed, 
is to find out how well that is going domestically because the 
Department has some responsibilities in terms of information 
sharing. We have an awful lot of great systems in place. I am 
not sure, because I do not know if they are all talking to each 
other and sharing in the way that they should be.
    Senator Enzi. I am glad you mentioned that because one of 
my pet peeves has been that for people coming into the country 
legally, that we check them in on a series of computers, and we 
check them out on a series of computers. But I am not sure that 
we ever get the computers connected so that we could know who 
was here and who was not here. I think the most effective 
enforcement is if we find them as soon as their visa runs out. 
So I hope that you would put that on your list of things maybe 
to do.
    Recently, I was flying back to Wyoming, and the person 
sitting next to me was a member of the Border Patrol, and he 
did not know that I was a Senator, but I was very curious about 
how things were going. He had just been to a training session, 
and he had been doing it for quite a while. And he was pretty 
depressed, I would say had low morale, he told me that they 
could do a lot of things, but because there is rampant law 
breaking along the border, and he felt that orders from 
Washington kind of tied his hands, that they could not respond 
effectively.
    As a commander, I know you relied on your officers and your 
troops and you developed plans and you executed missions, and 
in some very difficult situations for keeping the morale of the 
people that were under you going.
    Have you developed any plans for how you are going to check 
on the Border Patrol and see if there are some morale things 
that could be changed?
    General Kelly. Yes, sir. One of the things I have always 
done, learned from some of the finest leaders, I think, 
certainly in the U.S. military, you have to get out and about. 
You have to get out and, figuratively speaking, kick the tires, 
look around. Interesting you should make that point. Just prior 
to my leaving active duty, because I worked so closely with 
Homeland Security and law enforcement, even though Mexico was 
not in my area of interest, I took a trip up to El Paso in 
uniform and just went to the port of entry (POE) and then met 
with some officers there, just to thank them and to tell them 
from my position in the south they were doing a great job. I 
met with some of the Border Patrol folks, same thing. And when 
you say things like, ``Listen, just how are things going?'' You 
pull out a tape recorder, because you are going to find out. 
And that is, I think, a very important way to find out about 
things, encourage people to speak truth to power from the 
bottom up. And certainly anytime a whistleblower calls in and 
makes an accusation or makes a comment, it is very definitely 
worth listening.
    So that is how I do business. Sometimes you get an earful 
and wish you had not asked the question, but you should always 
ask the question.
    Senator Enzi. I appreciate that. I used to be in small 
business, and sitting in an office did not solve all the 
problems. You had to get out and see what was happening.
    Thank you for your answers, and my time is about to expire. 
Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Enzi. Senator Carper.
    Senator Carper. Thanks. Thanks so much. A quick one. We 
talked a little bit about this when you visited with me in my 
office this week, but there is a unit within the Department of 
Homeland Security that goes by the National Protection and 
Programs Directorate (NPPD). And we talked about people say, 
``Well, what is that? Or what does that represent?'' There is a 
lot of confusion and not much understanding. As it turned out, 
it refers to cybersecurity and it refers to infrastructure 
protection. And it is an agency that is supposed to do both of 
those. But just by hearing the name, you would never know. Any 
thoughts on that?
    General Kelly. Well, when I looked at the organization 
chart, maybe one of the first questions I had was: What does 
that block do? So I agree. I think a name change is not always 
important. It might be in this case. It has been brought up to 
me, Senator, a number of times. You did, obviously, but other 
people within the organization, and not within Homeland 
Security. I have not spoken to anyone in Homeland Security 
right now because of the memorandum of understanding (MOU). But 
people have brought it up to me, past employees of Homeland 
Security. So as we talked in your office, we will take a look 
at that up front.
    Senator Carper. OK. Thanks so much.
    When I was in the Navy, I was stationed for a while in San 
Diego and would venture down into Mexico. And there was a time 
when people went back and forth between Southern California and 
Mexico rather easily. And there was a time when there was a 
huge amount of illegal immigration from Mexico into the United 
States. I am told that today there are more Mexicans going back 
into Mexico than there are Mexicans coming into the United 
States.
    Why do you suppose that is? And are there any lessons from 
that development that might be applicable for the emigration of 
people, large emigration of people from Honduras, Guatemala, 
and El Salvador?
    General Kelly. That is a great question. I have a great 
deal of experience in Central America, and I hold the people to 
ourselves in very high regard. And I understand, I think, and 
empathize with their problem. They for the most part do not 
want to come up and leave their homes, their families, but 
there is not an awful lot of economic opportunity for them 
there, and there is certainly a level of violence that in our 
country we could not imagine.
    Honduras is an example. When I took over in Southern 
Command, it was the most violent planet by U.N. numbers--most 
violent country on the planet, 91 deaths per 100,000. By 
contrast, our country is about 5. Through a lot of good work 
down there, not always perfect but the President has taken that 
down by a third. Still horrific levels of violence. But my 
point is they most of the time do not come here for any other 
purpose than to have some economic opportunity and to escape 
violence.
    I stated this for 3 years when I was at Southern Command, 
and certainly when I testified before this Committee in April. 
My view is if we can help them by reducing our drug demand, 
which is the fundamental problem of many of their problems, by 
reducing our drug demand, at the same time helping them improve 
their police--their militaries are actually pretty good. Human 
rights is very much a part of the way they operate. And if we 
improve the situation of violence, then my belief is investment 
would come, and so there would be economic opportunity there. 
The three countries in the Northern Tier--El Salvador, 
Guatemala, and Honduras--have banded together and developed 
their own approach called the--the name escapes me, but--
    Senator Carper. Alliance for Prosperity.
    General Kelly. Alliance for Prosperity that we helped them 
develop, and so they are putting their own money against it. 
And they really seek foreign investment, not money from the 
United States but investment maybe from the United States. So I 
think if we were to do that for them, there would be a lot--
and, frankly, they will tell you, as long as the migrants leave 
Honduras or wherever and, generally speaking, get into the 
United States easily, safely, and do not come back, there is 
going to be a draw. So we have to get our arms, I think, around 
those three factors.
    Senator Carper. When we were together the other day, we 
talked about Colombia and how 20 years ago a bunch of gunmen 
rounded up the supreme court of Colombia. They took them into a 
room and shot them all to death. And, today, Colombia is not a 
perfect nation, but it is a much different nation, and a strong 
partner of ours, strong trading partner of ours, and a fairly 
vibrant democracy. None of us are perfect.
    Then we have Plan Colombia, which a number of people worked 
on, certainly President Clinton; Joe Biden was then, I think, 
the Chairman of the Foreign Relations Committee. I describe 
Plan Colombia and also the Alliance for Prosperity, which was 
developed by Honduras, Guatemala, and El Salvador, I call it 
``The Home Depot'' plan. You know, Home Depot, in their 
advertising, they say, ``You can do it. We can help.'' In this 
case, Colombia, they can do it, we can help, and we have. 
Honduras, Guatemala, and El Salvador, they can do it, we can 
help. In this case, we are committed to do that. We have 
committed so far one year of funding, and President Obama has 
asked, Vice President Biden has asked for a second tranche.
    Do you have any thoughts along those lines?
    General Kelly. Senator, anytime someone tells me--and a lot 
of people have told me; I reference back to my time in Southern 
Command--that the Central American republics cannot be helped, 
parts of Mexico cannot be helped, I say, ``Look at Colombia.'' 
Colombia was in the exact same place 20 years ago, looking into 
the abyss. They made some fundamental changes to how they did 
business, how they allowed their military to operate, and they 
are what we called when I was in South America ``exporters of 
security.'' And by that I mean they go out and help other 
countries in the region, particularly in the Central American 
isthmus, help them help themselves. They are our best friends, 
in my view, in Latin America, and they are already stepping up 
to help and would like to do more.
    The Alliance for Prosperity, when we were helping them, my 
original thinking was, well, let us call this ``Plan Central 
America,'' like Plan Colombia. And Plan Colombia really came 
out of this institution, out of the Congress, and then the 
Clinton Administration picked up on it, and it worked. Four 
cents on the dollar, U.S. money, and all the rest of it was 
paid for by the Colombians.
    But back to the Plan Central America, there were people in 
the interagency that did not think that we should do that, so 
we went up with the Alliance for Prosperity. A rose by any 
other name. It is kind of the same thing.
    Senator Carper. All right. Thanks so much.
    Chairman Johnson. Thank you, Senator Carper.
    Senator Portman. Just for other Senators, it is going to be 
Portman, Tester, Daines, Peters, Harris, Paul, Hassan, 
Lankford, and I believe it is Heitkamp and Hoeven, but we will 
figure it out. So that is the order. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    General Kelly, first let me echo the comments of others to 
thank you for your remarkable four and a half decades of 
service to our country and the sacrifices your family has made. 
I am particularly appreciative of your wife, Karen, who 
apparently told you that you had to answer the call once again. 
And we have seen with your introductions today that you are 
likely to be confirmed, and I am just delighted you are willing 
to serve. I do have three areas of inquiry I would like to 
touch on, and we talked about some of this in our meeting.
    The first is your management challenge. You said you had 
been a member of some large, complex organizations. This will 
be the most complex and the largest. It is 240,000 employees. 
When you look at it, there are probably, 20 major offices or 
departments within it. And as you know, I was part of the 
Select Committee in the House to put this together after 
September 11, 2001, knowing that the left hand did not know 
what the right hand was doing. We had to protect the country, 
but, frankly, I have been frustrated by the lack of progress in 
having the Department work as one. And it has been mentioned, 
the morale problems, but there is a lack of coordination in 
many people's eyes, some inefficiencies.
    So the first question I would ask you really is a 
management question: What are the three things that you would 
intend to do to help make the Department work more effectively 
to protect us?
    General Kelly. The first thing, I am sure you are aware, I 
know, that the unity of effort that Secretary Jeh Johnson has 
embarked upon, taking a look around at the other 
bureaucracies--and I do not mean that in a negative way at 
all--the way that other departments work, I know the Senate is 
very aware of the fact that the Department of Defense is a 
better place today than it was 30 years ago before Goldwater-
Nichols. And people of my rank--that was not my fault at the 
time, but people of my rank fought tooth and nail against the 
Congress for 30 years. Ultimately, laws were passed, Goldwater-
Nichols, and we have become a better place because we have 
knocked down a lot of the rice bowls, got people talking to 
each other. The Marines still are the best, but the other 
services are pretty good, too. [Laughter.]
    But, we all have our traditions and ways of thinking and 
doing business, and we did not have to give that up when we 
went to jointness. I think there is a place for that, and I 
know that Secretary Jeh Johnson has already done that, and I am 
going to get smart about that as fast as I can. I think as much 
as we can draw--I mean, the mission is homeland security. That 
is a mission I believe everyone can get behind. Just like DOD, 
the mission is to defend the Nation abroad, primarily.
    I do not know if there has been enough of that, but I 
believe even though there are very separate groups within 
Homeland Security, if everyone can understand first and 
foremost we protect the Nation, and then we do that in 
different ways, much like DOD, I think it would go a long way 
to bringing the Department together, much as Secretary Johnson 
has begun.
    And then there are just other things. I mean, some of the 
Senators and others have recommended to me some organizational 
changes, personnel changes, not individual people but, why has 
this person got this many Under Secretaries or Assistants, take 
a look at all of that. To Senator McCaskill's point, there are 
probably efficiencies there and there is savings there, and I 
commit to the Committee for sure I will look at that.
    Senator Portman. We would appreciate that, and a top-down 
review I think is always a good idea when you come into a new 
place, but particularly with an agency as complex as this one.
    Let me ask you about intelligence. I am also concerned 
about redundancies in our Intelligence Community. There are 17 
intelligence agencies in the government, if you count them all. 
Two of them reside at the Department of Homeland Security: one 
is Coast Guard intelligence, but the other is this Office of 
Intelligence and Analysis. Again, I have not been as impressed 
as I had hoped I would be with their mission, which is really 
to fuse intelligence from all the different sources together to 
be able to better protect the country, including a private 
sector liaison to help with infrastructure. They are supposed 
to track terrorists and their networks, assess risks and so on.
    What is your sense of that entity? And do you think it 
could be improved?
    General Kelly. I think everything can be improved, and what 
I have learned--and once again, Senator, I have been restricted 
from actually dealing with Homeland Security, but what I get 
from the transition team and others that have worked at 
Homeland Security is that that could be better, the information 
sharing within the organization, and even out to law 
enforcement. But, again, it is way up on the list in terms of 
things I will look at.
    Senator Portman. How about fusion centers? In all of our 
States we have fusion centers now. Are they effective? Are they 
redundant? Should they be wound down? Should they be 
reinforced? What is your sense of how the fusion centers are 
working?
    General Kelly. Depending on who has talked to me about 
them, they are effective and they are redundant. So again----
    Senator Portman. And I think, frankly, even within our 
States we might find that some are more effective than others. 
I would hope you would also in your top-to-bottom review take a 
look at those fusion centers----
    General Kelly. Yes, sir.
    Senator Portman [continuing]. And be sure they are doing 
the job they should be doing. My sense is they were also 
supposed to compile information and intelligence. Sometimes 
because classified intelligence is difficult to compile if you 
are not deeper in the community, sometimes it is being done by 
other entities, and there is not information being provided to 
some of our first responders. But I would love to have your 
assessment of that once you have had a chance to be on the 
ground.
    The final question I have is about the drug issue. As you 
heard earlier, this is an epidemic. You and I have talked about 
it. I loved your testimony before the Committee last year. I 
talked to you about that, and I have complimented you in the 
Committee since then on that, because you focused on the demand 
side, and I am a strong believer that until we deal with 
prevention and education better, and treatment and recovery, it 
is going to be very difficult to stop this flow of drugs, and 
they will find other ways to do it.
    On the other hand, almost unimpeded now across the Southern 
Border, as you say, almost all the heroin that is consumed here 
is produced in Mexico, as well as many of the drugs. So two 
questions.
    One, what would you do to increase that apprehension? You 
mentioned interdiction earlier and pushing back beyond the 
border.
    And, second, we have legislation called the ``STOP Act'' 
which is intended to deal with this issue of fentanyl and 
carfentanyl, which is a synthetic heroin, really the next wave 
we are seeing in our communities. That mostly comes by mail, 
and some of it actually from Mexico, it also comes from China 
directly, then sometimes is mixed with heroin in Mexico and 
brought back in a drug form. But it is not taken by packages 
across the border physically. It goes through the U.S. mail 
system. We tried to work with Customs and Border Protection 
(CBP) on this as well as DEA, and I just wondered if you had 
any sense of that issue, what you would do, and just your 
general thoughts on interdiction.
    General Kelly. I believe interdiction starts--and you can 
talk cocaine or whatever. It starts really where it is 
produced. The Colombians, to use that example again, do 
tremendous work in terms of eradicating coca and destroying 
labs and that kind of things, tremendous work in taking huge 
tonnages off the flow, with very few naval assets, and I use 
the Coast Guard there as well, very few naval assets. My 
information is at least a year old or right at a year old, but 
SOUTHCOM gets a couple hundred tons a year. And the beauty of 
it down there is you get it in 1-ton, 2-ton, 3-ton lots. Once 
it gets ashore and starts, it is right up the network. A big 
take at the Southwest Border of, say, cocaine or something like 
that might be 5, 10, 15 kilos. So I think if we could do more 
with our partners. Again, not to harp on the demand thing, but 
if we were to block the network so nothing could get through 
the Southwest Border, the so-called balloon effect, they would 
find other ways around it. The profits are so outrageous. That 
is why I believe it is all about the demand.
    Senator Portman. Thank you, General. I appreciate it.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman, Ranking Member 
McCaskill. And, General Kelly, thank you for being here, and 
thank you for putting yourself up for this. First things first, 
though. I want to thank your family for sharing you with us one 
more time. I very much appreciate your guys' commitment to this 
because it is oftentimes not easy and these jobs are oftentimes 
not easy, and this is one of those jobs that is not easy. So 
thank you.
    And, General Kelly, thank you, as Senator McCaskill said, 
for getting your ethics report in, your background complete, 
your pre-questionnaire, and your financials. I appreciate that 
very much also.
    Your job is a big one, and I know from our meeting in my 
office--and I want to thank you for your direct answer of the 
questions we talked about there and today, too. We talked about 
border security. We hear a lot about the Southern Border, which 
is critically important. The Northern Border, with a 540-mile 
border with Montana alone, with one national park bordering 
Canada, and an Indian reservation bordering Canada and three 
Indian reservations within 100 miles of Canada, it adds to the 
complexity. But I think you have a grasp of that.
    I am going to start out a little parochial, but I am going 
to take it to the bigger issue. We talked about a port north of 
Plentywood that DHS wanted to close, a 24-hour port. It was my 
belief that this port was critical for border security on the 
Northern Border because it was a port with a long distance 
between the other two 24-hour ports on the east and the west.
    What is your view with border security as it applies to not 
only the folks that are on patrol but the folks who are in the 
ports?
    General Kelly. Well, Senator, I think, it is clearly a 
balance. We cannot stop the normal flow of commerce and just 
legal people. By the same token, we have to do better at 
closing the border to the things that we do not want to come 
in.
    I am not as familiar nearly, as we discussed, with the 
issue of the Northern Border. But as I promised you in your 
office the other day, I will be very quick to come up on that 
and perhaps even during the summer visit your State.
    Senator Tester. I will take you up on that. [Laughter.]
    And we will make sure we do not get you into North Dakota 
because they will give the wrong impression. And we will follow 
up on that, but there are grants like Operation Stonegarden 
grants that are critically important. There are efforts to be 
made with the local farmers and ranchers that live on that 
border, and I need to get you there so actually you can talk to 
those folks, because I think they are not paid by you or us but 
still are an important part of the overall structure of 
homeland security.
    I want to talk about immigration for a second. When you 
were in my office, you said what I have thought for a long 
time, and that is that we make folks jump through hoops to get 
the visa, and then after they come into the country, we never 
tell them to head home. How do you anticipate to make it work 
when those visas expire, to be able to notify those folks that 
it is time to head back?
    General Kelly. To the degree that I have been in 
discussions on this point, apparently we do not have a 
particularly good system to kind of alert when--the day after 
someone's visa expires, we do not have a very good system to 
say this person's visa expired and to share that information, 
whether it is within the Department for sure and then local 
enforcement. And it is not until, as you know, Senator, people 
get caught doing something wrong, speeding or something like 
that, that they get caught and we say, OK, this person----
    Senator Tester. That is right.
    General Kelly. So the discussions I have had is that we 
have to do better with systems, first of all, alerting us that 
someone has stayed past, and then as appropriate, perhaps send 
someone to their house or their last known residence and ask 
them why they have not departed yet.
    But the other issue, as I have been briefed--and this is 
kind of hard, but, as you know, when non-citizens come in, we 
record them. When they go out by commercial air we record them 
leaving. What we do not do very well at apparently is at the 
ground entrances, so I will look into that as well.
    Senator Tester. Well, I appreciate any work you can do on 
that because I think that would help solve not all but 
certainly a fair amount of the problem.
    REAL ID is something that has been of controversy in the 
State of Montana since my days back in the State legislature, 
which is over 10 years ago now. For the time being, DHS has 
waived part of the law requiring construction of a linked 
nationwide database required by the law. I know Senator Paul is 
also concerned about this.
    What are your plans to implement the REAL ID issue as it 
applies to States like Montana that do not really want to see 
this nationwide database?
    General Kelly. Well, as the Senator knows----
    Senator Tester. And still keep our country safe. A tough 
nut to crack.
    General Kelly. As the Senator knows, it is in the law. It 
is my understanding that the Secretary has some elbow room in 
terms of waiving it. I would like to think that--and I am not 
completely, kind of conversant with it, but I would like to 
think that in the small number of States that have not met the 
point at which they have safe ID cards, I would like to 
absolutely work with the States to find a way ahead, what we 
can do to come to an agreement.
    There is always the possibility of additional time waivers, 
but I would like to work with the States on that, Senator.
    Senator Tester. OK. Thank you. In your particular case, 
this is a big Department; it has a lot of different arms 
sticking out there. And your Deputies are going to be really 
important.
    General Kelly. Right.
    Senator Tester. What are you going to be looking for in 
your Deputy Secretaries?
    General Kelly. For anyone that works, I think, for the 
Federal Government, but certainly at the senior level, people 
that, first of all, know what they are doing, understand the 
importance of following the law, and understand the importance 
of taking care of their people. To Senator McCaskill's point 
again, people that will listen to their subordinates when there 
are suggestions of how to do business better, listen to their 
subordinates when there is more serious problems and not 
retaliate against anyone when they come up and raise issues.
    Senator Tester. OK. Last question very quickly. What is 
your highest priority when you are considering anti-terror 
efforts?
    General Kelly. Stopping them somewhere well away from our 
country.
    Senator Tester. Very good. Thank you, General.
    General Kelly. Sir.
    Chairman Johnson. Thank you, Senator Tester.
    One thing you will notice, General Kelly. The Northern 
Border is very well represented on this Committee. [Laughter.]
    Sometimes in duplicate.
    Next is Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman.
    General Kelly, it was truly an honor to have you in the 
office 
yesterday. Thank you for considering coming to Montana. We will 
take a look at that Northern Border. As the Chairman just 
mentioned--I just counted heads here, Mr. Chairman--7 out of 15 
members on this Committee actually have a Northern Border, just 
two have a Southern Border. And that is not to say the Southern 
Border is not important, but this Committee will also not 
forget about that important Northern Border.
    I also want to thank your family. As the son of a Marine, 
my dad would be very proud, if he were here, knowing that we 
are having this conversation. So thank you for your service. My 
family sleeps better at night knowing that a four-star general, 
a Marine no less, is leading the Department of Homeland 
Security. So thank you, and thank you very much, Karen, and to 
the rest of the family for allowing the General to continue to 
serve our country.
    General Kelly, as we discussed yesterday, I spent 28 years 
in the private sector before I came to the Hill, 10 years with 
a global cloud computing company. We faced cyber threats daily. 
The customers expected their data to be secure. We delivered. 
Our data was never compromised.
    And then I came to the Federal Government, became an 
employee of the Federal Government, elected to the Congress in 
2012, and lo and behold, you got the same letter that I got in 
terms of our information being compromised as Federal employees 
because of a cyber breach.
    The Internet is a great tool for creativity, for 
communication, for commerce, but it has also become a tool for 
bad actors engaging in fraud, identity theft, piracy, terrorist 
propaganda, espionage.
    As Secretary, how will you counter these cyber threats to 
protect our Nation and our families?
    General Kelly. Well, obviously, Senator, if confirmed, I 
will get deep into it. In my job as a military person, I 
understand cyber out there and know what our capabilities are, 
U.S. capabilities out there. I also know that 3, 4, 5 years 
ago, we talked about the United States would not have a peer 
competitor in cyber for 20 years or 25 years. Now we know that 
we have some pretty darn close to peer competitors.
    I was watching something that Secretary Ash Carter started 
when he first took over at the Defense Department. He started 
to reach out to the commercial world, Silicon Valley, that kind 
of thing, to engage them or at least to get a report card on 
how we are doing within the Federal Government to develop. But 
there is obviously unbelievable talent out there in the 
civilian sector, and I think at this point in time, everyone 
realizes that it is in everyone's interest--whether it is 
personal security or corporate security, certainly U.S. 
security, everyone realizes, I think, that working together 
makes an awful lot of sense.
    There are clearly privacy issues and those kinds of things 
and the law would always have to be followed. But I think just 
more cooperation amongst the private sector and in the Federal 
sector and the State sector, I think that would go a long way 
to it. But, again, I think Ash Carter was onto something in a 
big way when he started to reach out to the commercial world.
    Senator Daines. Thank you. I want to turn attention back to 
that Northern Border discussion we had earlier. Agriculture is 
our largest economic driver in a State like Montana. Canada is 
our largest export market. We want to make sure our farmers and 
ranchers do not have disruptions as they go north and south, as 
it relates to commerce.
    But this 5,500-mile-long border that we have on the 
Northern Border, we know there are a lot of bad actors out 
there. They view that Northern Border as very much a soft 
underside. And, frankly, with the current Administration, we 
have had some challenges with insufficient staffing to make 
sure that we are protected there to the north.
    As the Secretary, how would you increase Customs and Border 
Protection officer recruiting, retention, and mitigate some of 
the staffing shortages without reducing services?
    General Kelly. Senator, I think in the world I came from, 
there was a time back right in the Vietnam period where we 
could not recruit or retain good servicemembers, mostly because 
of the morale, mostly because of when other young men and women 
talked to their brothers, older brothers, saying, ``Should I 
join the armed forces? '' ``No, it is not worth it.'' So an 
awful lot of the retention and recruiting problem comes as a 
result of the morale problem within the Department.
    I was just talking to a couple of gentlemen a little 
earlier who said that they have been lifelong members of the 
Federal law enforcement world but would not recommend their 
sons or daughters join up. I have a very good friend--well, I 
will end it there and just say the best recruiters in any 
organization are the people that are already in the 
organization. If they value or have a sense that people value 
what they do, that there is a future, that there is upward 
mobility, that you get a fair shake no matter who you are in 
terms of advancement and all, that turns recruitment and 
retention around.
    What I hear mostly is, ``We are not appreciated,'' and, 
``We are not allowed to do our job.'' So I will take a long, 
hard look at that right away.
    Senator Daines. Thank you, General Kelly.
    Yesterday, we discussed the government earning the trust of 
the people. DHS' U.S. Citizenship and Immigration Services 
(USCIS) play a critical role in vetting refugees--this has 
become a topic of conversation across our country as well as in 
Montana--long before they reach U.S. soil, interviews, 
background checks, collecting biometric data abroad and so 
forth. How can the American people regain trust that any future 
refugee will not be a risk to our families? And what will you 
do to ensure that there are comprehensive background checks 
completed?
    General Kelly. One of the problems, I think, with many of 
our refugees is they come in from countries obviously that are 
dysfunctional. And I think many American citizens feel that if 
you are taking in people from a country that simply has no law 
enforcement bureaucracy--they clearly do not have things like 
the FBI and Homeland Security--how can you guarantee? There is 
no guarantee. You cannot guarantee 100 percent, and if you are 
taking in large numbers of people--or any people from places 
where you really cannot vet them very well, I guess you do the 
best you can.
    Senator Daines. And, lastly, you talk about telling truth 
to power. How has this integrity served you in making tough 
decisions as a leader?
    General Kelly. It has made it easy, actually. As Secretary 
Gates said, it is a moral responsibility. It is what you do. I 
have found if you do not, organizations like the U.S. Senate 
and House figure out very quickly that what they are getting 
from a witness is not straight, and it certainly kind of 
marginalizes you. So I think truth to power is the way to go.
    Senator Daines. Thank you, General Kelly.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman.
    General Kelly, wonderful to have you here, and I will join 
everyone else in thanking you for your service, and certainly 
for your family's service as well. It is truly a family affair, 
public service, particularly for your many years in the U.S. 
Marine Corps. So I appreciate your patriotism and sacrifice.
    I also wanted to say it is good to see you again. I had the 
privilege of being with you in Guatemala probably mid-year last 
year as part of the Committee trip and had the benefit of your 
briefings and actually had the benefit of being on the border 
between Guatemala and Mexico and talking about some of the 
issues related to immigration from that country and from Latin 
America as well. And it is certainly very refreshing to see a 
nominee for the Secretary of Homeland Security as someone who 
has been on the front line in dealing with those issues.
    I also appreciate from your briefings the fact that you 
understand that this is an incredibly complex issue. It cannot 
be solved simply by building a wall. It requires a much more 
thoughtful approach. And I am confident, based on your 
experience and your statements, that you bring that to the 
office.
    I wanted to pick up on what Senator Daines talked about in 
regard to cybersecurity. As we talked about in our previous 
conversation, I believe that without question the number one 
national security threat to us is cyber, not only the Russian 
attacks, which you have addressed earlier in the hearing here, 
but attacks that are occurring on a daily basis. And as you 
know, a person or entity trying to use cyber to attack us often 
looks for the weakest link, and that weakest link tends to be 
entities like small businesses or perhaps local governments or 
State governments that do not have the same kind of cyber 
protections that we may have at the Federal level, although 
that is certainly open for attack as well, as we have seen from 
the past.
    But last Congress, I joined Senator Vitter in introducing 
the Small Business Cyber Security Improvements Act--and it was 
part of the 2017 National Defense Authorization Act (NDAA), and 
it is now law--that will require the Small Business 
Administration (SBA) and the DHS to develop a Small Business 
Development Center for Cyber Strategy. And I just kind of 
wanted your thoughts on your support of that endeavor and how 
you see the DHS working particularly with the small business 
owners who do not have the resources to have elaborate defenses 
to protect themselves as well as protect larger networks.
    General Kelly. Well, Senator, as you know, part of the 
mission is to protect the dot-gov of DHS, protect the dot-gov 
nets, and to work with the commercial world since it is part of 
the mission. Again, I do not know the level of effectiveness. I 
suspect, I know Secretary Jeh Johnson, a good friend, has this 
on his scope. I do not know the degree how successful we are 
being, but he started for sure this process of outreach, and I 
will continue it.
    Senator Peters. Right, well, I appreciate that.
    There is another area that I have some direct questions 
that I would like to ask that are very important to folks in my 
State. As we spoke about earlier, I represent a very large 
Arab-American, Muslim-American community in the State of 
Michigan, one of the largest communities outside the Middle 
East, largest community in the United States. Based on comments 
made by the President-elect, I will tell you there is a great 
deal of fear in the community, a great deal of unease about 
what the future means for them under the new Administration. 
And, certainly, the Department of Homeland Security is a place 
where they have particular anxiety. I am curious as to your 
position on a couple things.
    First off, do you agree that putting mosques under 
generalized surveillance and establishing a Muslim database, 
two proposals that were discussed by President-elect Trump, 
would raise serious constitutional issues under the Free 
Exercise Clause of the First Amendment and the Equal Protection 
Clause of the Fifth and Fourteenth Amendments?
    General Kelly. I am not a lawyer, but to the degree I 
understand those laws, yes, sir.
    Senator Peters. Will you commit to ensuring that religion 
does not become a basis for U.S. counterterrorism or law 
enforcement policy, particularly as it relates to the targeting 
of individuals with ancestry from Muslim-majority countries?
    General Kelly. I do not think it is ever appropriate to 
focus on something like religion as the only factor, so yes, 
sir.
    Senator Peters. And do you believe that non-citizen 
Muslims, people of Arab or people of South Asian descent should 
have to register with the government? And if so, for what 
purpose would the program be used?
    General Kelly. I know there was some program some years ago 
where they had this on the books. I know it is no longer on the 
books, and unless--obviously, it would have to be legal, but 
unless there was some really compelling reason, so yes, sir, I 
would agree.
    Senator Peters. I think the program is the National 
Security Entry-Exit Registration System (NSEERS) program that 
you are talking about.
    General Kelly. Right.
    Senator Peters. That began in 2002, and it was supposedly 
to catch terrorists. It existed for a number of years and never 
had any impact whatsoever. So it sounds as if you would not be 
supportive of bringing that back. Good.
    The last question is the Supreme Court case, Korematsu v. 
the United States, was a landmark case addressing the 
constitutionality of Executive Order (EO) 9066, which ordered 
Japanese-Americans into internment camps during World War II, 
regardless of their citizenship. Do you agree that the Supreme 
Court decision in Korematsu does not provide a legitimate 
precedent for internment or special registration of individuals 
who are Muslim or with ancestry from Muslim-majority countries?
    General Kelly. I do. I do not agree with registering people 
based on ethnicity or religion or anything like that, so I 
think I would agree with the Supreme Court.
    Senator Peters. Great.
    General Kelly. Again, I am not a lawyer here, so----
    Senator Peters. Right. I understand. Well, I appreciate 
those responses, and maybe just in follow-up--and I know we 
talked about this in our meeting earlier, but if you could let 
the Committee know how do you approach communities in this 
country who are made up primarily of Arab-Americans, Muslim-
Americans. From your past experience, how do you see your role 
as Homeland Security director in reaching out to those 
communities and making them part of a solution?
    General Kelly. Very briefly, as we discussed in the office, 
Senator, our success in Iraq, certainly my time in Iraq, was 
because I outreached with people across the spectrum of 
society, all of whom were Muslim, followed the Islamic faith. 
Obviously, the men, the clerics, the communities, the way we 
won certainly in my part of Iraq was we outreached to people, 
convinced them that we were there for good, not evil, we were 
there to protect them and to help them, and overnight, almost, 
with the Awakening and other things that I will not go into--
but, I mean, it was the thing that gave us success, outreach to 
the community and touching everybody in the community and 
gaining their trust. I know Secretary Johnson does that, and I 
certainly will continue that, look forward to continuing that.
    Senator Peters. Well, I appreciate those responses, 
General. And if confirmed, we would love to host you in the 
Detroit area with a community that would be very eager to meet 
you and certainly needs reassurance from someone in that 
position.
    General Kelly. I look forward to it, Senator.
    Senator Peters. Thank you.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Chairman Johnson and Ranking 
Member McCaskill.
    General, thank you for your longstanding service and 
sacrifice, and to your family as well.
    I would like to ask you a few questions, starting with the 
Deferred Action for Childhood Arrivals. Hundreds of thousands 
of DACA recipients around the country are afraid right now for 
what this incoming Administration might do to them and also 
what it might do to their unauthorized family members. In order 
to receive DACA, these young people submitted extensive 
paperwork to the Federal Government, including detailed 
information regarding themselves and their loved ones. They 
also had to qualify, as you know, for the program, and in 
qualifying, each person's case was reviewed and determined on a 
case-by-case basis.
    The young person must have not been convicted of a felony 
or a significant misdemeanor or three or more misdemeanors. The 
young person must also not be deemed to pose a threat to 
national security or public safety. The young person must 
currently be in school, have graduated or obtained a 
certificate of completion from high school, have obtained a 
General Education Development (GED) certification, and/or have 
been honorably discharged as a veteran of the Coast Guard or 
Armed Forces of the United States.
    Among other things, DACA applicants must submit proof of 
identity, proof of time and admission in the United States, 
proof of relevant student school completion or military status, 
and biometric information.
    As part of the DACA application process, we conduct 
biometric and biographic background checks against a variety of 
databases maintained by DHS and other Federal agencies.
    If a DACA applicant knowingly makes a misrepresentation or 
fails to disclose facts in an effort to obtain DACA, it is a 
felony, and the applicant will be treated as an immigration 
enforcement priority to the fullest extent permitted by law and 
be subject to criminal prosecution and/or removal from the 
United States. This means obviously that applicants to DACA 
know that if they are not giving us the whole truth about their 
story, they are putting a target on their own backs.
    At the time, the Department of Homeland Security assured 
them that it would follow its longstanding practice of not 
using such information for law enforcement purposes except in 
very limited circumstances. These young people are now worried 
that the information that they provided in good faith to our 
government may now be used to track them down and lead to their 
removal.
    So my question is: Do you agree that under DACA we have and 
those young people--hundreds of thousands of them have relied 
on our representations? Do you agree with that, that we would 
not use this information against them?
    General Kelly. The entire development of immigration policy 
is ongoing right now in terms of the upcoming Administration. I 
have not been involved in those discussions. If confirmed, I 
know I will be involved in those discussions. I think there is 
a big spectrum of people who need to be dealt with in terms of 
deportation----
    Senator Harris. I am speaking specifically of DACA.
    General Kelly. And those categories would be prioritized. I 
am not part of the process right now. I would guess that this 
category might not be the highest priority for removal. I 
promise you, Senator, that I will be involved in the 
discussion.
    Senator Harris. I would like that you would read or become 
familiar with a document issued by the U.S. Citizenship and 
Immigration Services, its Frequently Asked Questions brochure. 
Question No. 20, the question is: If my case is referred to 
Immigration and Customs Enforcement (ICE) for immigration 
enforcement purposes or if I receive a notice to appear (NTA), 
will information related to my family members and guardians 
also be referred to ICE for immigration enforcement purposes? 
The answer, according to this document, is that if the case is 
referred to ICE for purposes of immigration enforcement or they 
receive an NTA, information related to their family members 
that is contained in their request will not be referred to ICE. 
Are you willing to maintain that policy of not referring that 
information to ICE?
    General Kelly. I will definitely look very long and hard at 
the document. I am not familiar. I do not know right now where 
the upcoming Administration is going in this. I will be part of 
that. I can tell you, Senator, I promise you that I will keep a 
very open mind as we look at this topic.
    Senator Harris. Are you familiar that under your 
predecessors, the director of Homeland Security made the 
decision and issued the information to the troops? It was not 
the President. Are you familiar with that?
    General Kelly. Yes, ma'am.
    Senator Harris. OK. And do you agree that many of these 
young people were brought here as children and only know 
America as their home?
    General Kelly. Many of them are in that category.
    Senator Harris. And do you agree that they are now studying 
at colleges and universities and graduate schools across our 
country, some are working in Fortune 100 companies, major 
institutions, and businesses, both small and large?
    General Kelly. I am aware that some are, yes.
    Senator Harris. And do you intend then to use the limited 
law enforcement resources of DHS to remove them from the 
country?
    General Kelly. I will follow the law. But, again, I go back 
to we have a limited capacity to execute the law, so we would 
certainly look at the highest priority activities and--but I 
will follow the law to the extent that I can execute the law, 
if that makes sense.
    Senator Harris. Well, I know as a career prosecutor--I was 
formerly Attorney General of California and before that a 
district attorney elected to two terms in office--that we in 
law enforcement have limited resources. I am interested in 
knowing from your perspective where the students and the young 
people who applied for and were eligible for DACA, where they 
would fall on your list of priorities in terms of the limited 
law enforcement resources that you have, or would have if 
confirmed.
    General Kelly. I think law-abiding individuals, in my mind, 
with limited assets to execute the law, would probably not be 
at the top of the list.
    Senator Harris. And would you agree that State and local 
law enforcement agencies are uniquely situated to protect the 
public safety of their own communities?
    General Kelly. I would agree with that.
    Senator Harris. And are you aware that State and local law 
enforcement leaders across the country have publicly stated 
that they depend on the cooperation of immigrant communities to 
protect criminal activity and to come forward as witnesses to 
crime?
    General Kelly. I have read that.
    Senator Harris. And are you aware that there has been--in 
the past, when the government has applied indiscriminate 
immigration sweeps, many local law enforcement agencies have 
been concerned and have complained that there has been a 
decrease in immigrants reporting crimes against themselves or 
others?
    General Kelly. I was not aware of that.
    Senator Harris. Will you make it your priority to become 
aware of the impact on immigrant communities in terms of their 
reluctance to report crimes against themselves, their family 
members, or others when they are concerned that DHS may direct 
sweeps against entire immigrant communities?
    General Kelly. You have my commitment I will get briefed on 
this. Again, I fall back on really the law will guide me, if 
confirmed, in everything that I do.
    Senator Harris. And I would encourage that not only the law 
but how it will practically apply in the streets in terms of 
the perception of the interpretation of the law to those 
immigrant communities and what we all want to do ensuring that 
all victims of crime, regardless of their documented status, 
are protected and that they receive justice in a court of law.
    General Kelly. I acknowledge that.
    Senator Harris. Thank you.
    Chairman Johnson. Thank you, Senator Harris.
    Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. General Kelly, congratulations, and I want to 
join in also thanking you for your service and your family's 
sacrifice in defense of our country.
    The position you are up for, Homeland Security, is 
obviously to defend the homeland, to defend the country. But 
the oath you take is actually to defend the Constitution. That 
is the oath we take. It is the oath you also took in the 
military as well. And I think that is an important distinction 
because it does not mean we want security at all costs. We want 
security in order to have our liberty. So liberty is an 
important part of this.
    There have been times in our history when I think we let 
fear overcome our ability or our desire to defend the 
Constitution. In the Civil War, we suspended habeas corpus. We 
kept people in detention without trial, without legal access. 
We arrested 3,000 editors during World War II. A hundred 
thousand Japanese were detained. We let our fervor or our fear 
somehow replace our oath to defend our liberty, to defend the 
Constitution.
    We have on the books and we passed about 5 years ago a law 
that says that an American citizen can be indefinitely 
detained. Not an American citizen overseas, not someone 
captured in Syria on a battlefield, but someone captured in the 
United States and accused of terrorism can be kept 
indefinitely. They could be sent to Guantanamo Bay, or they 
could be sent a variety of places. It has never been used, and 
this President has said he would not use it. But he signed it 
anyway, much to the chagrin of some of us. But it is on the 
books. And I guess my question to you would be: Do you think we 
can adequately arrest people in our country who are, somehow a 
threat to our homeland security? Do you think the Constitution 
could be good enough, that due process in our courts of law in 
our country would work? Or would you think there are going to 
have to be times when we are just going to have to detain 
people without trial?
    General Kelly. I am pretty committed to the Constitution. I 
was not aware of the law. It surprises me. But I think we have 
enough laws to help us out in that regard.
    Senator Paul. I think it is important, and, obviously, the 
future is unknown, but you and I have talked about in the 
office if something terrible happens, we need people in places 
of leadership that do not let us succumb to our emotions and 
our fear, whether they are irrational fears of others or 
whatever they are, that the law is incredibly important, and 
that is what our soldiers sacrifice so much for.
    With regard to how we collect data on people to protect 
ourselves, once again it is this idea, well, are we so fearful 
we are going to collect data on everybody? There have been 
instances when we have. For example, we have had bulk 
collection of everyone's phone records. Now, some will argue a 
technical part of the Fourth Amendment is, oh, well, your phone 
records are not really protected. Some of us will argue, well, 
they should be protected. But it is this debate we are having. 
But it is also a debate about sort of how you come to security 
in our country. Can we come to security by individually going 
after suspects or people whom we are suspicious of? Or should 
we have blanket surveillance of everyone, which means we have 
to give up, according to some of us, liberty and privacy?
    I will give you a specific example of this, because this 
comes from Homeland Security. A couple of years ago, they 
decided they would use license plate screeners, and apparently 
they are very rapid, and they can collect hundreds and 
hundreds, if not thousands of license plates an hour. But they 
decided they would go to a gun show. Why this particularly 
concerns me is you could also conceive of people at a gun show 
as exercising some sort of freedom of speech or some sort of 
ideological belief by being at a gun show, not just wanting to 
buy a gun but actually defending their Second Amendment right 
to buy a gun.
    What alarms me is that if we are going to scan license 
plates at a gun show, we might go to a pro-life rally or a pro-
abortion rally, depending on who is in charge. I do not want 
the government scanning people's license plates. I do not want 
them covering and getting all of our data just so we can 
possibly be safe someday from something. I want the individual 
to be protected. But I am not against Homeland Security going 
after individuals and digging as deep as you want with the 
proper process.
    So what I would ask you is your opinion on how do we defend 
the country. Can we do it with the traditions of looking at 
individuals for whom we have suspicion? Or are we going to have 
to collect all of this data and give up our privacy in the 
process?
    General Kelly. Senator, I would go with the traditional 
route. The scanning of the license plates, I mean, there may be 
a reason. I cannot think of one right now. But I am not for the 
collection or the mass collection of data on people. I would go 
the other way.
    Senator Paul. And this is an amazing amount of information 
we can look at. If you had all of the information of everyone's 
visa purchases in the country, there is no end. But realize 
that this is a big part of what your job is, people are going 
to be coming to you saying, ``Protect us. We want to be safe.'' 
But at the same time, what are we willing to give up? Can we 
keep what we actually believe and what we are as a people, the 
freedom that you were committed to as a soldier? And I hope you 
will keep that in mind.
    General Kelly. Yes, sir.
    Senator Paul. Thank you.
    Chairman Johnson. Thank you, Senator Paul. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you, Chairman Johnson and 
Ranking Member McCaskill. I look forward to working with both 
of you. And, General Kelly, thank you so much for being here 
today, for your service. To your family, I echo the thanks you 
have heard today for your service and sacrifice. We are very 
grateful.
    I wanted to just start by asking a question on 
cybersecurity that has hit my neck of the woods a little bit in 
the last couple of weeks. Two weeks ago, the Washington Post 
reported that a hacking group connected with the Russian 
government managed to infiltrate the Burlington Electric Power 
Company in Vermont. And New Hampshire and Vermont, as you know, 
have many shared utility connections along the border between 
the two States. I think we all agree that foreign infiltration 
into our utility infrastructure, into any of our 
infrastructure, is unacceptable. And with DHS being responsible 
for securing our critical infrastructure from both physical and 
cyber attack, I am just curious about what steps you think DHS 
needs to be taking to prevent cyber attacks on critical 
infrastructure and confronting foreign nations' cyber espionage 
efforts.
    General Kelly. The best thing we can do, obviously, is just 
outreach to everybody, whether it is power plants or other 
commercial interests. The problem, as we discussed, is just it 
is constant, it is relentless.
    Senator Hassan. Right.
    General Kelly. It is from nation-states. It is from Mafia-
type organizations. And it is just from vandals. But I think 
the solution is, A, outreach to offer the protections that 
exist now. And then the threat changes so rapidly, we cannot 
keep up with it, and we have to find a way, I think, to keep up 
with it.
    Senator Hassan. Thank you. There has been a lot of 
discussion among Committee Members about the opioid, heroin, 
and fentanyl crisis, which is devastating all of our States, 
but New Hampshire has been particularly hard-hit. And there has 
been excellent discussion, I thought, about issues on the 
Southern Border concerning the fentanyl crisis in particular, 
too, because that is really changing the way drug dealers are 
operating, the ease with which fentanyl can be made, the profit 
margins are huge, and the addictive nature of fentanyl is even 
greater than other opioids.
    But one of the things that I am heartened by is your focus 
on the demand side of this crisis, and it would be, I think, 
heartening to the people of my State and our country if you can 
commit on behalf of DHS, should you be confirmed, to partner 
with this Committee, with Governors around the country, to 
really look at the overprescribing of opioids in this country 
and treat it as the security threat that it is. Is that 
something you can work with us on and commit to?
    General Kelly. I look forward to that, Senator.
    Senator Hassan. OK. Thank you.
    I will add to the Northern Border chorus, by the way, just 
to say do not forget us.
    General Kelly. Forget, no.
    Senator Hassan. And, last, I wanted to focus on one other 
issue concerning terrorism. Certainly, we are all concerned 
about the terrorism that is a threat from faraway places. 
Earlier in your testimony, you indicated that one of your goals 
would be to keep the terrorists as far away from United States 
soil as possible. But the nature of the threat is always 
changing, always evolving, and of late I think we all agree 
that there has just been a disturbing rise in homegrown 
terrorism. And no matter how secure our borders are, terrorist 
groups like ISIS and al-Qaeda certainly we know use the 
Internet to encourage and inspire troubled Americans to carry 
out violence at home.
    So how do we go about tackling that particular challenge? 
And what partners will be most valuable for DHS and the 
American people in this fight?
    General Kelly. A tough problem, to say the least. And as I 
have discussed with a number of Senators, I think it really 
does start with families and with churches, synagogues, 
mosques. The homegrown, if you will, terrorists, not just ISIS 
inspired, I mean, there are some pretty grim other groups of 
other nationalities, if you will, white supremacist, that kind 
of thing. But I really do believe it starts with people, 
parents, understanding what is going on in the bedroom when the 
son or daughter is in there on the Internet all the time. We 
kind of worry about that they are on inappropriate porn sites 
or something. But the fact is that I think that is where it 
starts in many ways. Who knows why they get disaffected with 
the country? But they get on those websites, and it poisons 
their mind, I think.
    I think in the churches, synagogues, whatever, people hear 
them talking and should turn them in or should at least be 
concerned, talk to their parents.
    I am reminded of a young--I think it was a young woman down 
in the South who was getting radicalized clearly, and her 
parents noticed it and turned her in to the police. By the same 
token, there are other examples to where people knew that 
people were getting radicalized--I think the San Bernardino 
couple, but people were afraid to raise a red flag because they 
thought, A, ``Maybe they will do something to me,'' and, B, 
``Maybe I will be legally held accountable''--legally in the 
sense of a lawsuit or something like that. But it starts there. 
Clearly, our law enforcement professionals then serve a role, 
but it is a really tough nut to crack.
    I think to the Senator's question about engagement with 
some of the parts of America that have a lot of Arab-Americans, 
Islamic-Americans, so that they feel as though they can report 
and not be afraid. But I think if we are going to get at this 
problem at all, it is really energizing communities and 
families to keep an eye out for the telltale signs and then to 
seek help before it gets out of hand. And as I say, in that 
case that I know of in the South, just before it really got out 
of hand, they turned the daughter in. It is an act of love to 
get her help or to get them help. So that is where I am on it, 
Senator.
    Senator Hassan. Thank you very much. And, again, thank you 
for your service.
    General Kelly. Yes, ma'am.
    Chairman Johnson. Thank you, Senator Hassan. You may not 
have been here quite when I welcomed everybody, but, again, 
welcome to the Committee. I certainly enjoyed our phone call, 
and I look forward to working with you. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. General Kelly, thanks again for your 
service. You have done a remarkable job in your career for the 
Nation, and I appreciate you stepping back out again. And for 
your family and for all that step out with you, it is a 
tremendous asset to the Nation.
    You know full well, when you were asked by the President-
elect to do this, that every time there is a problem at an 
airport, every time there is a shooting, if there are two 
people who cross the border, whether north or south, somebody 
is going to call your phone and say what is not working. So I 
appreciate you engaging to do that.
    Let me give you a couple other optimistic pieces as well, 
as you scan what is happening. We release every year a report 
and try to identify different areas, and as you know, DHS has 
been a major area for morale. That has been discussed several 
times.
    Let me give you a couple other pieces of good news. The 
Government Accountability Office (GAO's) 2015 review of 22 
major acquisition programs at DHS found that only 2 of the 22 
were actually on track. The Inspector General (IG) at DHS in 
their report found that DHS' major acquisition programs 
continue to cost more than expected, take longer to deploy than 
planned, and deliver less capability than promised.
    DHS was also identified and has been identified by GAO now 
for 13 years not getting up to speed on its human resources 
programs. We have now spent $180 million over 13 years just to 
get an human resource (HR) program working at DHS.
    While we have all talked often about some of the issues at 
the border, which are serious, there are some internal things 
that are undone. And so while you are focusing on some of these 
other areas, I would encourage you to assign a Deputy to finish 
the unfinished product of how we handle acquisitions, the cost 
overruns, and how we handle HR within DHS.
    General Kelly. If confirmed, I have my work cut out for me, 
obviously.
    Senator Lankford. Yes, sir.
    General Kelly. There are some great people in the 
organization. I hope to retain some of them or to hire others 
that have been involved in Homeland Security. And I think this 
is also part of Secretary Jeh Johnson's unity of effort. He has 
looked into other parts of our bureaucracy and said: How do 
they do it? No one is perfect, but how do they do it? We have 
to build probably an acquisition force in DHS. We do not have 
the same kind of acquisition capability as, say, DOD does. Not 
perfect, to say the least, but yes, sir, you have my 
commitment.
    Senator Lankford. Thank you. Let us talk about a couple of 
things that have been touched on a little bit before. There is 
an ongoing conversation, obviously, about cyber and cyber 
attacks into the United States, so two specific areas I want to 
bring up with you. One is jurisdictional. This Committee 
obviously is very engaged in cyber as a homeland security 
issue. Armed Services is obviously very involved in that and 
what is happening with cyber issues, as well as Intel.
    What I am looking for is some cooperation in a sense of 
this is not going to be a jurisdictional fight and so no one 
does it, but how do we actually build a sense of teamwork and 
cooperation between Armed Services, Intel, and DHS, and so we 
can build a real sense of a cyber doctrine. A cyber doctrine 
and how we are going to respond to cyber attacks has been 
discussed now for a decade, and it has been met to death, 
basically, in one meeting after another, but no set of 
decisions on that. Help me understand how we get to a decision 
and move on in cooperation with other entities.
    General Kelly. I think I would agree, Senator, the worst 
thing that this city oftentimes deals with is the stovepipe 
mentality and the rice bowls, and people, in my view, if 
confirmed--and it has been the way I have operated. I have no 
rice bowl. If I have to give something up or, go across town to 
someone else's meeting, I will do that to improve whatever it 
is we are trying to improve. There is unbelievably talented 
people in the U.S. Government, across the bureaucracies. But my 
sense is that there is just not enough interaction. Obviously, 
we cannot do certain things because of laws, but laws can be 
changed if need be. But I think 10 years ago when we started 
talking about this, we were probably a little bit ahead of the 
problem. And 10 years later, we are behind the problem now. I 
think probably now is the time to act.
    I think we very easily could suffer a catastrophic, 
seriously catastrophic cyber event because we did not do our 
jobs as the U.S. Government, and I think probably right now 
there is an awareness that it is time to sit down and work 
these things out. And, again, I think the commercial world, the 
civilian world is as much a player in this as the Federal 
Government is.
    Senator Lankford. And I would say this Committee is eager 
to have a partner in that to be able to discuss it, what needs 
to be done legislatively. There are times we will have 
administrative witnesses here that will say, ``I cannot really 
give a recommendation to you,'' when we know the Administration 
officials deal with it all the time, they know the barriers and 
the issues they face. We need some good cooperation from people 
to be able to sit down with us and to say, ``Here is what we 
are bumping up against.''
    Two other quick areas on this. One of them is working with 
cities that do not want to cooperate on the issue of 
immigration, the sanctuary cities that have determined we do 
not want the Federal Government dealing with individuals that 
are clearly in the United States illegally and have a criminal 
record. What are your thoughts on this?
    General Kelly. Well, I think as a public servant, if 
confirmed, I do not think I have the authority to pick and 
choose what laws need to be followed. I think it is in a lot of 
ways dangerous to think that you can pick and choose which 
laws. I understand maybe the perspective of some of the local 
leaders, but I do think the law is the law, and I think the law 
has to be followed.
    Senator Lankford. Yes, sir. I would agree.
    Let me bring up one last thing with you as well, and it is 
something you and I have talked about before, and that is the 
Northern Triangle and our good relationship with El Salvador, 
Honduras, and Guatemala and some of their leaders that are 
really doing a remarkable turnaround. We spoke about Guatemala 
and the new president, Jimmy Morales, and Thelma Aldana, the 
attorney general there, and the remarkable work that they are 
doing.
    What practically can we do as a Nation to help them? As we 
deal with cocaine use, for instance, around 90 percent of the 
cocaine that comes to the United States touches soil first in 
Guatemala.
    General Kelly. Right.
    Senator Lankford. So what can we do to be able to partner 
with them to deal with interdiction efforts?
    General Kelly. Stop the demand.
    Senator Lankford. That is a big one.
    General Kelly. If we stop the demand, this would--and you 
are never going to get to zero. We have talked about this, 
obviously. You never get to zero. But stopping the demand, and 
we just do not have and never have had a truly comprehensive 
demand reduction that goes to everything from law enforcement, 
treatment, rehabilitation, interdiction of large amounts of 
drug as it is in the flow, working with our partners down 
south. We have never had a real serious public campaign here in 
the United States.
    I testified in this room in April, you had some real 
experts up here about behavior modification, tobacco, Mothers 
Against Drunk Driving-type campaigns. You never get to zero. 
But we have to reduce the amount of drugs used. Forty-seven 
thousand Americans died last year from drug overdoses. It cost 
America $250 billion. We have to do something.
    Senator Lankford. I would agree. Thank you.
    Chairman Johnson. Thank you, Senator Lankford.
    Now back to the Northern Border, Senator Heitkamp. 
[Laughter.]

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. I deserved that. There are a lot of 
critics of the Northern Border here.
    I am going to just rapidly go through a number of things 
that you and I talked about that you know are of great 
interest, and I think Senator Tester hit on the recruitment, so 
did Senator Daines. Absolutely critical. We think that DHS has 
begun a process that can actually result in some successes. 
Please stay on top of that. We absolutely have to give these 
folks help. And it is not fair what is happening to a lot of 
our Border Patrol agents, Customs and Border Protection, who 
are told literally they cannot move home to other parts of the 
country or transfer. You are going to lose those folks to other 
Federal agencies who will, in fact, give them an opportunity to 
move. So it is critical that we pay attention to the workforce 
on the Northern Border, pass the bill, sign the bill. We look 
forward to your analysis, putting your touch on the Northern 
Border, challenges and issues, and I am greatly interested in 
how that whole thing comes out.
    Cybersecurity--I join Senator Lankford in saying we hear it 
coming at us from all different directions. I think 
historically the Intel Committee has kind of taken a little 
jurisdiction there, and we do not want a stovepipe or rice 
bowl--I think you were saying rice bowl. That is a new one to 
me. We do not want to silo these issues. We want DHS to assert 
their important role in cybersecurity.
    Human trafficking--we just did a hearing this morning for 
the Permanent Subcommittee on Investigations with Backpage. It 
is a scourge. Obviously, that the Blue Campaign is working to 
train officers, and has been absolutely a critical resource for 
people in my State as we confront the area of human 
trafficking. Please look at that program. I think there are 
improvements that can be made, but I will tell you that your 
officers and investigators within DHS have been critical in 
advancing the cause of protecting children in this country.
    Something that I do not think has been raised here, which 
is first responders. I challenge you to take a look at what is 
happening with volunteer fire departments. For the vast 
majority of area in this country, the fire protection comes 
from volunteers. Maybe there is a professional or a paid staff 
person, but the volunteers provide that service. They are 
having a hard time recruiting volunteers. Some of that goes to 
equipment. Some of that goes to just losing a culture of 
volunteerism. Somebody else is going to do it.
    I think it is critical that you assert your role, and I am 
going to ask that you pay attention to our RESPONSE Act which 
just passed that would take a look at the Federal Emergency 
Management Agency (FEMA's) role in training people, especially 
as it relates to hazardous and flammable material on the rails.
    I think Senator Hassan was hitting on something very 
critical on the anti-radicalization. Have you had a chance to 
visit with the folks within DHS who are working on that program 
and evaluate what you think of that program and how you would 
change the current program that they have?
    General Kelly. I have not. Because of the ingoing/outgoing 
MOU, we cannot directly touch.
    Senator Heitkamp. OK.
    General Kelly. But I am in there, if confirmed.
    Senator Heitkamp. I really believe that it is critical that 
you bring the expertise of your service historically to that 
effort. I think that it is a little late in coming, but I think 
it can be a force for good and I think critically important. 
There are also some local grants to communities who want to 
bring a collaborative nature, bring people together, build 
those relationships that hopefully will, number one, prevent 
radicalization but certainly report it as a front-line effort. 
The motto, ``See something, say something,'' if the community 
does not feel appreciated, respected, or is afraid to report 
something for fear that it will come back to them, you are not 
going to get the intel that you need.
    I want to spend just a little bit of time talking about the 
Northern Triangle. I like to tell--and I think I should tell 
your wife, the excuse he gave me is you no longer wanted him 
underfoot. [Laughter.]
    I do not know. But we are extraordinarily grateful, and you 
must be extraordinarily proud, both his daughter and his wife. 
This is a remarkable public servant. But one of the reasons why 
I believe that DHS won the Cabinet lottery--and you can tell 
from perhaps this love fest that we are having with you today--
is that you have such a breadth of experience in an area that 
is very challenging to our Southern Border and really our 
entire border security. Your work at SOUTHCOM is critical. You 
told me that very many of those Latin American leaders called 
you and were very excited. That gives us a real opportunity.
    But one of the things that I think we have missed as we 
look at the rush of the children to the border is the 
opportunity that we have to work with organizations like the 
Organization of American States and the United Nations High 
Commissioner for Refugees (UNHCR), who are trying to deal with 
the people fleeing violence in those communities and in those 
countries and refugee in place, by helping Belize, by helping 
Nicaragua, by helping Southern Mexico, by helping Costa Rica, 
who has taken a fair number of these refugees into their 
community.
    Have you had a chance to take a look at those efforts 
regionally to look at helping people out of violence but also 
then stabilizing communities? And are you at all concerned 
about blanket statements about nation building and whether that 
is going to restrict or in any way hamstring your ability to 
bring a different perspective to the Northern Triangle?
    General Kelly. Senator, the first thing I would offer, when 
in SOUTHCOM and for my entire career, every discussion really 
began and ended with human rights and a discussion of human 
rights. I had a very good relationship up here in Washington, 
and every country--every time I visited a country, I would make 
it a point to meet with the local human rights groups because 
you get a far different view of what is needed, what the real 
conditions are, from the local human rights people.
    I would make the same comment about the churches, church 
leadership in that part of the world. Of course, it is 
overwhelmingly Roman Catholic with a very sizable Evangelical 
Christian. I worked, met with those people. Oftentimes, maybe 
most of the time, the non-governmental organizations (NGOs) and 
organizations like that have a better view and, a way ahead 
that is worth listening to. I spent an awful lot of time with 
them. So I am totally--but at the end of the day, really, to 
use an overused term, it is really improving the security on 
the ground, and investment--not just more money--investment 
monitored in the right way by the right organizations. The 
Inter-American Development Bank (IDB) is a particularly good 
one in that part of the world. I am not suggesting we give them 
money. I am suggesting we rely on them to tell us how to invest 
that money.
    But it is a tough problem, and it comes back to the 
incredible profits that flow out of our country because of the 
use of drugs. The average American who uses drugs say 
recreationally does not think there is anything wrong with it. 
The Latins will tell you because of your recreational use or 
your abuse, thousands and thousands of Latins die every year 
that should not die. And I just wish we had a campaign to make 
people understand that there is no such thing as a nonviolent 
use of drugs.
    Senator Heitkamp. Thank you so much, and, again, thank you 
so much to your family and to you for your long service and 
your continued service to our country.
    General Kelly. Thank you, ma'am.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman.
    I was presiding on the floor from 3 to 4, so one of the 
good things about coming late is that we get to hear all the 
testimony and the answers to the questions. One of the bad 
things is you end up last in line. But, again, I want to add my 
thanks to you for your service, for your service to the 
military and for your willingness to serve again, and your 
family, too. And you bring great experience. Thanks for coming 
by the office today and engaging in conversation about this 
important position.
    I kind of want to start off, I come from the funding side. 
I chaired the Appropriations Subcommittee for Homeland Security 
for the last 2 years, and particularly in terms of results. So 
talk to me, if you would, for a minute about how do we make 
sure that we have secured the border and that we are measuring 
results so that we know exactly what is going on and that we 
communicate those results to the people of the country so they 
understand what is going on.
    General Kelly. Well, Senator, I think the two ways to 
measure it would be--and my law enforcement friends tell me 
that in the case of drugs that come in--frankly, I am not 
arguing for legalization of marijuana here. I am just saying 
that the only drugs that I really ever concerned myself with at 
SOUTHCOM were the three hard drugs. All the marijuana flow that 
we saw was coming from some of the Caribbean islands south. So 
I just focused on the hard drugs.
    They will tell you that if you have an effective law 
enforcement strategy, I would argue border strategy, you will 
start to see the cost of drugs go up. They are dirt cheap now, 
but kind of a supply and demand thing, if you can reduce the 
availability, and that is one way to the street price of drugs. 
It is interesting, a kilo, a retail kilo, not street value cut 
down, but a kilo in Washington, D.C., here costs about $40,000. 
A kilo in most of the rest of the world costs about a quarter 
of a million dollars, and that is because of the business 
aspect of the movement. But the point is the law enforcement 
people say if you see the price going up, then you are doing 
something right.
    And in terms of the illegal movement of people, fewer 
people come in. In a way it is anyone's guess how many--there 
is a certain number that we pick up, but it is anyone's guess 
how many actually get through. But, I think there are some 
pretty good metrics that you could use, a range of people that 
get through, a range of people that are being processed in the 
legal deportation route. But I think those two things: how many 
you are actually grabbing at the border would be one metric, 
internally how many people are apprehended and enter the 
process of deportation or at least the legal process, and then 
the price of drugs. I think those would be pretty good metrics.
    Senator Hoeven. So are you willing to commit to provide 
those metrics so that we truly have an understanding of what is 
going on at the border, both the Southern Border and the 
Northern Border, but then also our international airports and 
seaports.
    General Kelly. Right.
    Senator Hoeven. The issue of visa overstays, the work we 
need to do to make sure that E-Verify is mandatory so we truly 
have an understanding of who is coming, who is coming in, who 
is being detained at the border, and what is the resolution of 
someone that is detained. Are you committed to providing those 
statistics so we all have a common understanding of what is 
factually going on?
    General Kelly. I am certainly committed, Senator, but I 
think also, if confirmed, I am going to get into how accurate 
the numbers are in the first place. We are working with 
numbers. If you talk to people about the amount of cocaine, as 
an example, that is produced in the three countries that 
produce it, the spectrum is like this [indicating]. I am told 
that, 200 tons at the most, but I got 200 tons my last year at 
SOUTHCOM. The Colombians got 158 tons or something like that. 
So there is wild estimates as to what the numbers are, whether 
it is people, whether it is drugs.
    So, yes, the commitment is there, and also a commitment to 
try to get--much of this data comes from DEA, FBI--to try to 
clue this together and come up with better numbers so we really 
know what we are dealing with. But, yes, sir, you have my 
commitment.
    Senator Hoeven. How do you make sure you secure the border? 
Talk in terms of the wall, in terms of technology, in terms of 
people. How do you make sure we have a secure border?
    General Kelly. Perhaps the most important thing right now, 
as I have heard--and, again, this is not briefed out of 
Homeland Security. We are not talking to them right now. But, 
anecdotally, it is allowing the great men and women that are in 
the law enforcement business at DHS, particularly down on the 
border, allow them to do the job according to the law.
    I had an interesting experience. Just a few months ago, I 
was down on the border in El Paso, off active duty, working for 
the Department of Defense down there looking at some things. 
And I was talking to some Border Patrol men and women, five of 
them on the border. Maybe 200 yards down, there was a big fence 
there, call it a ``wall.'' I mean, it is pretty substantial. It 
is not a chain-link fence. It is 18 feet tall and pretty 
seriously constructed. But I saw, half a dozen or so people 
jump over the fence. And I am standing there just expecting the 
officers to jump in their cars, put their lights on, and dash 
down there. And they said, ``What is the use?'' I was 
surprised. That is not good for morale.
    So I think the number one thing right now would be, in 
accordance with the law, let the people who are tasked to 
protect the border do the job.
    Senator Hoeven. So the need to really empower the people, 
Customs and Border Patrol----
    General Kelly. The laws are there, as I understand it. No 
one says the laws are not there that I talk to. Again, very 
anecdotal, kicking the tires. But we ought to be allowed to do 
our job.
    Senator Hoeven. Touch for a minute on unmanned aerial 
systems (UAS), both in terms of using them on the border as 
part of the technology effort, but then also counteracting 
them, defense in terms of, other countries or penetration by 
other technologies.
    General Kelly. Well, I think, the beauty of the UAS is they 
are low maintenance, relatively low cost, and they do not get 
tired, they do not complain. There is no one riding them 
around. It is pretty good stuff.
    One of the things I did in Central America was encourage--
they thought they needed air forces. They do not need air 
forces. They cannot afford them. And we got them going down the 
route of looking at UASs. It is a relatively cheap solution for 
observation purposes.
    The other part of your question about the opposition----
    Senator Hoeven. Counteracting. One of the things we have 
done is set up test sites to develop UAS. We are using them on 
the border. We need to do more of that. But then we also need 
to have the ability to counteract any type of UAS coming in or 
penetrating our system or creating a security breach.
    General Kelly. Well, one of the things--I have not been 
briefed in any way or any discussions on their use, say the 
cartels' use of UASs, but they do use the ultralights to cross 
the border. That is another problem. They are very hard to 
detect. But, again, there are ways to pick these things up. I 
am not completely conversant on the technologies that they use 
to go after these ultralight aircraft, but will be if 
confirmed.
    Senator Hoeven. Thank you, Mr. Chairman. I appreciate it 
very much. And, again, General, thanks to you for your service 
and for your willingness to serve again.
    General Kelly. Thank you.
    Chairman Johnson. Well, thank you, Senator Hoeven. And, 
again, welcome to both you and Senator Harris. I appreciate you 
asking some great questions.
    I think what you have just witnessed here, General Kelly, 
is what certainly I have experienced in my 6 years on this 
Committee, a Committee of people that, again, we share the same 
goal, as you do. We share your mission, keeping this Nation 
safe and prosperous and secure. And we do not do show trials 
here. We treat witnesses with respect.
    I reserved my question time, but the Committee Members 
asked a lot of great questions, so I will not hold you any 
further. Just the last couple points.
    Every one of these hearings that we hold from my standpoint 
is all about laying out a reality, try and describe a problem, 
try and go to the root cause, just lay out the reality of the 
situation. I think the reality that we exposed in this hearing 
is that, as Senator Heitkamp alluded to, we have the pleasure, 
the privilege, the honor of holding a hearing to confirm an 
extraordinary American, somebody that we are all incredibly 
appreciative of the fact that you are willing to answer the 
call one more time, your family is willing to support you. So, 
again, I want to thank you. I want to thank Karen, Kathleen, 
Jake, and your son John, who could not attend. Just thank you 
for serving.
    Our commitment to you is we want to help you succeed in 
your mission. We made that same commitment to Secretary Jeh 
Johnson. I want to wish him well. I think we all had a great 
deal of respect for the job he did. He led the effort, unity of 
effort, and I appreciate the fact in your answers you also are 
committed to that unity of effort. I think it is extremely 
important.
    I just spoke with Senator McCaskill. We would kind of like 
to see a unity of your responsibility reporting to Congress as 
well. I know it is a real snarl here, all these agencies with 
different committees. We will do what we can to try and at 
least streamline that so you can concentrate on your important 
mission of keeping this Nation safe and secure. So, again, I 
just want to thank you for your willingness to serve.
    General Kelly has made financial disclosures and provided 
responses to biographical and pre-hearing questions submitted 
by this Committee. Without objection, this information will be 
made part of the hearing record,\1\ with the exception of the 
financial data, which are on file and available for public 
inspection in the Committee offices.
---------------------------------------------------------------------------
    \1\ The information referenced by Senator Johnson appears in the 
Appendix on page 66.
---------------------------------------------------------------------------
    Chairman Johnson. This hearing will remain open until 5 
p.m. tomorrow, January 11th, for the submission of statements 
and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 5:52 p.m., the Committee was adjourned.]
    
    
    
    
    
    

                            A P P E N D I X

                              ----------                              




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
